<html>
<title> - HOW PERVASIVE IS MISCONDUCT AT TSA: EXAMINING FINDINGS FROM A JOINT SUBCOMMITTEE INVESTIGATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                  HOW PERVASIVE IS MISCONDUCT AT TSA: 
       EXAMINING FINDINGS FROM A JOINT SUBCOMMITTEE INVESTIGATION

=======================================================================

                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT
                       AND MANAGEMENT EFFICIENCY

                                and the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 7, 2016

                               __________

                           Serial No. 114-78

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                       U.S. GOVERNMENT PUBLISHING OFFICE 

24-381 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 




















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Cedric L. Richmond, Louisiana
Earl L. ``Buddy'' Carter, Georgia    Norma J. Torres, California
Barry Loudermilk, Georgia            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
                    Kris Carlson, Subcommittee Clerk
             Vacancy, Minority Subcommittee Staff Director

                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                    Kris Carlson, Subcommittee Clerk
         Cedric C. Haynes, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Oversight and Management Efficiency:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Transportation Security:
  Prepared Statement.............................................    10
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    11

                               Witnesses

Ms. Huban Gowadia, Deputy Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Andrew Oosterbaan, Assistant Inspector General for 
  Investigations, U.S. Department of Homeland Security:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                                Appendix

Questions From Chairman Scott Perry for Huban Gowadia............    49
Questions From Chairman Scott Perry for Andrew Oosterbaan........    53

 
                  HOW PERVASIVE IS MISCONDUCT AT TSA: 
       EXAMINING FINDINGS FROM A JOINT SUBCOMMITTEE INVESTIGATION

                              ----------                              


                         Thursday, July 7, 2016

     U.S. House of Representatives,        
      Committee on Homeland Security,      
             Subcommittee on Oversight and 
                 Management Efficiency, and
           Subcommittee on Transportation Security,
                                            Washington, DC.
    The subcommittees met, pursuant to notice, at 10:08 a.m., 
in room 311, Cannon House Office Building, Hon. Scott Perry 
[Chairman of the Oversight and Management Efficiency 
subcommittee] presiding.
    Present from Subcommittee on Oversight and Management 
Efficiency: Representatives Perry, Clawson, Loudermilk, Watson 
Coleman, and Torres.
    Present from Subcommittee on Transportation Security: 
Representatives Katko, Rogers, Carter, Ratcliffe, Keating, and 
Payne.
    Mr. Perry. The Committee on Homeland Security Subcommittee 
on--the Subcommittees on Oversight and Management Efficiency 
and Transportation Security will come to order. The purpose of 
this hearing is to examine findings of the joint subcommittee 
investigation related to misconduct at the Transportation 
Security Administration, otherwise known as the TSA.
    Before we begin the Chair asks unanimous consent for the 
majority staff report to be included in the hearing record.
    Hearing no objection, so ordered*.
---------------------------------------------------------------------------
    * The information referred has been retained in committee files and 
is also available at https://www.govinfo.gov/content/pkg/CPRT-
114HPRT97200/pdf/CPRT-114HPRT97200.pdf.
---------------------------------------------------------------------------
    The Chair now recognizes himself for an opening statement.
    In May 2016, Secretary Jeh Johnson released a new mission 
statement for the Department of Homeland Security. ``With honor 
and integrity we will safeguard the American people, our 
homeland, and our values.''
    I think most Americans would agree this isn't an 
unreasonable expectation. The American people expect all 
Federal employees, especially those charged with protecting the 
homeland to conduct themselves with integrity.
    Unfortunately, a 6-month investigation conducted jointly by 
this subcommittee and Chairman Katko's subcommittee has found 
that TSA violates the words and spirit of this new mission 
statement to a degree that is alarming and unconscionable to 
most Americans.
    Here are the facts of our investigation. Egregious 
misconduct occurs across all levels of TSA, all levels from the 
bottom to the top, and is growing. Yet, TSA's investigations 
into internal misconduct and the resulting penalties have 
decreased.
    Specifically, we found that TSA employee misconduct grew by 
almost 29 percent. Think about that, grew by almost 29 percent 
from fiscal year 2013 through 2015--35 percent of airports 
experienced increased numbers of allegations, some having 
nearly 40 times the number of allegations, that is allegations 
to be clear, than in fiscal year 2013.
    In terms of the types of misconduct that are growing, we 
saw significant increases in areas related to integrity and 
ethics, and disruptive behavior including sexual misconduct.
    Neglect of duty allegations nearly doubled during this 
period. There was a 17 percent jump in the category of failing 
to follow instructions. That is just failure. It is simple 
stuff, 17 percent jump. There are examples of airport screeners 
facilitating drug and human smuggling which we can't imagine 
that coming from this dais.
    Facilitating drug and human smuggling and sexually 
assaulting travelers. A Federal deputy, correction, a deputy 
Federal security director promoting a subordinate with whom he 
had a romantic relationship among numerous others.
    Every American should be outraged by these findings. I 
certainly am myself. We are in the highest threat environment 
since 9/11. From Orlando to San Bernardino our citizens are 
under attack from radical Islamist terrorists.
    Terrorist groups remain obsessed with both attacking civil 
aviation and recruiting Westerners. Just last month, CIA 
Director John Brennan testified that ISIS is probably exploring 
a variety of means for infiltrating operatives into the West. 
That is what he said.
    The last thing the American people need to be concerned 
with are corrupt, insolent, and often unethical airport 
screeners. What is even more outrageous is that TSA's response 
has been to investigate fewer, fewer allegations and use lesser 
penalties as the allegations actually increase.
    We found that open investigations had declined 15 percent 
and closed investigations had declined 28 percent during this 
very same period. Use of non-disciplinary actions, such as 
counseling, jumped 80 percent while disciplinary actions 
including letters of reprimand and suspension decreased by 14 
percent. Adverse actions including termination declined 23 
percent.
    TSA has not taken--this shows, this is evidence that TSA 
has not taken this conduct seriously and it is no wonder why 
employee morale at DHS is among the worst in the Federal 
Government. We literally had hearings on that.
    When TSA employees, when employees know that people that 
are engaged in adverse conduct aren't disciplined then that 
reduces their pride and their incentive to do the right thing. 
I think that is borne out in low employee morale. At least it 
is one of the reasons.
    What TSA has done is created a bloated bureaucracy without 
any real substance to process misconduct issues. Multiple 
offices have varying responsibilities related to misconduct, 
but no one oversees misconduct across airports to identify 
systemic solutions.
    So, what we are saying there is that there are multiple 
offices. It is not like when you think of most companies where 
there is an H.R. or human capital department with somebody at 
the top that oversees the whole thing.
    There is a series of different offices for different styles 
of management and different levels, and so on and so forth. 
There is nobody at the top that seems to be working and in 
control of the whole thing from top to bottom.
    Airports vary in how they address misconduct. Some airports 
have staff devoted to tracking misconduct issues while other 
absolutely do not. Some Federal security directors are engaged 
while others step in only when needed.
    This disjointed approach simply, the numbers, the metrics 
show, is not working. Several individuals who came forward to 
us said that they were either blown off or recriminated against 
for bringing issues forward. These are safety and security 
issues.
    So, if you imagine an employee comes forward and says, hey, 
I have got this issue. They are either disregarded or literally 
almost penalized. One of the penalties is you are moved with 
very little notice--in some cases, we have heard as little as 3 
days, across the country for bringing a salient issue. These 
are big concerns.
    TSA's big government, bureaucratic response has failed. It 
has failed TSA employees. It has failed the American public and 
the taxpayers. We recommend several common-sense actions, and I 
know you have seen them in the report just released, in a 
report which could have improved TSA's management of misconduct 
issues, but TSA must be committed to reform, committed to the 
reform.
    Dr. Gowadia, I am sorry, Gowadia, Gowadia. Thank you. There 
cannot be lip service, and we talked about this, to what TSA is 
doing to address these findings. There needs to be a 
significant, lasting, and meaningful reform from the top to the 
bottom of the agency.
    If there are employees unwilling to change, you must 
replace them with those who will. That includes the ones at the 
very top. Every minute TSA is forced to handle employee 
misconduct is one less that they are safeguarding the lives of 
travelers.
    The American people deserve better, and they are counting 
on you. They are counting on us. They are counting on you 
particularly to succeed in your mission.
    That ends my statement.
    [The prepared statement of Mr. Perry follows:]
                   Statement of Chairman Scott Perry
                              July 7, 2016
    In May 2016, Secretary Jeh Johnson released a new mission statement 
for the Department of Homeland Security: ``With honor and integrity, we 
will safeguard the American people, our homeland, and our values.'' I 
think most Americans would agree that this isn't that high an 
expectation; the American people expect all Federal employees, 
especially those charged with protecting the homeland, to conduct 
themselves with integrity. Unfortunately, a 6-month investigation 
conducted jointly by my subcommittee and Chairman Katko's subcommittee 
has found that TSA violates the words and spirit of this new mission 
statement to a degree that is alarming and unconscionable.
    Here are the facts of our investigation: Egregious misconduct 
occurs across all levels of TSA and is growing, yet TSA's 
investigations into internal misconduct and the resulting penalties 
have decreased. Specifically, we found that TSA employee misconduct 
grew by almost 29 percent from fiscal year 2013 through 2015. Thirty-
five percent of airports experienced increased numbers of allegations, 
some having nearly 40 times the number of allegations than in fiscal 
year 2013. In terms of the types of misconduct that are growing, we saw 
significant increases in areas related to integrity and ethics and 
disruptive behavior, including sexual misconduct. ``Neglect of Duty'' 
allegations nearly doubled during this period. There was a 17 percent 
jump in the category of failing to follow instructions. There are 
examples of airport screeners facilitating drug and human smuggling and 
sexually assaulting travelers, and a Deputy Federal Security Director 
promoting a subordinate with whom he had a romantic relationship, among 
numerous others.
    Every American should be outraged by these findings; I certainly 
am. We are in the highest-threat environment since 9/11. From Orlando 
to San Bernardino, our citizens are under attack from radical Islamist 
terrorists. Terrorist groups remain obsessed with both attacking civil 
aviation and recruiting Westerners. Just last month, CIA Director John 
Brennan testified that ISIS is ``probably exploring a variety of means 
for infiltrating operatives into the West.'' The last thing the 
American people need to be concerned with are corrupt, insolent, and 
unethical airport screeners. What's even more outrageous is TSA's 
response has been to investigate fewer allegations and use lesser 
penalties. We found that open investigations had declined 15 percent 
and closed investigations had declined 28 percent during this period. 
Use of non-disciplinary actions, such as counseling, jumped 80 percent 
while disciplinary actions, including letters of reprimand and 
suspensions, decreased by 14 percent and adverse actions, including 
termination, declined 23 percent. TSA has not taken misconduct 
seriously and it's no wonder why employee morale at DHS is among the 
worst in the Federal Government.
    What TSA has done is created a bloated bureaucracy without any real 
substance to process misconduct issues. Multiple offices have varying 
responsibilities related to misconduct but no one oversees misconduct 
across airports to identify systemic solutions. Airports vary in how 
they address misconduct. Some airports have staff devoted to tracking 
misconduct issues while others do not. Some Federal Security Directors 
are engaged while others step in only when needed. This disjointed 
approach is not working. Several individuals who came forward to us 
said that they were either blown off or recriminated against for 
bringing issues forward. TSA's big government, bureaucratic response 
has failed. It has failed TSA's employees and it has failed the 
American public.
    We recommend several common-sense actions in our report which could 
improve TSA's management of misconduct issues. But TSA must be 
committed to reform. Dr. Gowadia, there cannot be lip service to what 
TSA is doing to address these findings--there needs to be significant, 
lasting, and meaningful reform from the top to the bottom of the 
agency. If there are employees unwilling to change, you must replace 
them with those who will. Every minute TSA is forced to handle employee 
misconduct is one less that they are safeguarding travelers. The 
American people deserve better and they are counting on you to succeed 
in your mission.

    Mr. Perry. The Chair now recognizes the Ranking Member of 
the Subcommittee on Oversight and Management Efficiency, the 
gentlelady from New Jersey, Mrs. Watson Coleman for her 
statement.
    Ms. Watson Coleman. Thank you very much, Mr. Chairman. 
Thank you to you and to Chairman Katko for holding today's 
hearing.
    Just as a matter of on the record, I just want to make it 
known that we are just receiving a copy of this ``Misconduct At 
TSA Threatens the Security of the Flying Public,'' which I 
understand was a joint report that the Majority staff did 
without our input, and obviously without our opportunity to see 
it. Perhaps it could have been helpful for me for today.
    But, nonetheless, I am glad that we are here today. I want 
to thank our witnesses for being here. Thank you for the 
testimony that you are going to be giving.
    The Transportation Security Administration provides 
security at airports throughout the Nation, and it helps secure 
our Nation's service transportation systems. TSA screens over 2 
million passengers at 450 airports in the United States daily.
    In fiscal year 2015 TSA employees screened over 700 million 
passengers and 400 million checked bags. Travel in the United 
States is on the rise, seeing a 15 percent increase from 2013 
to 2015. Airports are expected to experience a significant rise 
in passenger traffic this summer.
    Due to increased passenger volumes, decreased 
appropriations for transportation security officers, and 
changing procedures due to security screening shortfalls, wait 
times in the Nation's airports have increased.
    Recently TSA has come under fire about the passenger wait 
times and the extravagant bonuses that were paid to a former 
assistant administrator who oversaw security operations while 
TSA was known to have security lapses.
    High-profile incidences such as these in addition to the 
TSA pay scale and benefits for its front-line personnel have a 
devastating effect on the transportation security officers that 
serve the public on a daily basis.
    The performance and morale of TSA personnel should be of 
utmost importance. However, many of the front-line employees, 
the transportation security officers, are short-staffed and are 
often asked to work multiple shifts.
    In addition, while these TSOs are Federal Government 
employees, they are not subject to general civil service 
provisions that include collective bargaining rights, the 
ability to appeal adverse actions to the independent merit 
system protection board, and whistle-blower protections.
    I believe that the TSA employees, especially those engaged 
in security screening, should be subject to civil service 
provisions. That is why I am an original sponsor of H.R. 4488, 
The Rights for Transportation Security Officers Act of 2016.
    This bill authored by the Ranking Member of the full 
committee provides the Transportation Security Administration 
screening work force with long overdue rights, the same rights 
afforded to most Federal workers under Title V.
    Both the DHS office and the Inspector General and the 
Government Accountability Office, GAO, have examined 
allegations of misconduct by TSA personnel. Two offenses 
account for more than half of all cases. One, attendance and 
leave, and two, screening and security.
    Based on its analysis GAO found that TSA did not have a 
proper process for conducting reviews of misconduct to verify 
whether TSA personnel at airports were complying with policies 
and procedures.
    TSA implemented the recommended changes. However, 
allegations of misconduct increased by almost 30 percent from 
2013 to 2015. I certainly will be interested in understanding 
an explanation of that.
    In fiscal year 2015 alone the DHS OIG received 
approximately 1,000 complaints either from or about a TSA 
employee, most of which related to allegations of misconduct. 
Specific instances of misconduct included retaliation against 
whistleblowers, mismanagement, and security failures.
    It has also been reported that TSA personnel are afraid to 
speak up about problems at the agency in fear of being unfairly 
punished or reassigned to lower positions. In fact, TSA 
management has been described by staff as the biggest bully in 
the Federal Government.
    Allegations of retaliation and mismanagement drastically 
impact the workplace. Moreover, it appears that rank-and-file 
personnel are disciplined at a much higher rate than 
management. It seems as if management is disciplined when they 
are high-profile cases or media attention that brings negative 
attention to the TSA.
    For the sixth year in a row DHS saw an overall drop in 
employee engagement and morale according to the 2015 Federal 
employee viewpoint survey. What is even more concerning is TSA 
in particular is ranked one of the worst places to work in the 
Federal Government, coming in 313 out of 320 in the annual 
survey by the Partnership for Public Service.
    Dr. Gowadia, today I look forward to hearing from you how 
TSA plans on better managing its work force starting from the 
top in addressing low morale. I also look forward to hearing 
the changes that TSA has implemented as a result of the OIG and 
GAO investigations. Particularly the mechanisms implemented to 
better hold management accountable.
    But I would also like to thank the TSOs who are on the 
front line every day for their diligent work under such intense 
responsibility and pressure during the July 4th holiday period. 
Even before and even as we go into the future.
    TSA screened 10.7 million travelers with average wait times 
in standard security lanes less than 10 minutes. That is good 
news, moving in the right direction.
    Thanks to reprogrammed funding from Congress, TSA has been 
able to hire additional TSOs and increase overtimes to address 
staffing shortages.
    With that, Mr. Chairman, I yield back the balance of my 
time. Thank you.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                              July 7, 2016
    The Transportation Security Administration provides security at 
airports throughout the Nation and helps secure our Nation's surface 
transportation systems.
    TSA screens over 2 million passengers at 450 airports in the United 
States daily.
    In fiscal year 2015, TSA employees screened over 700 million 
passengers and 400 million checked bags.
    Travel in the United States is on the rise, seeing a 15 percent 
increase from 2013 to 2015.
    Airports are expected to experience a significant increase in 
passenger traffic this summer.
    Due to increased passenger volume, decreased appropriations for 
Transportation Security Officers, and changing procedures due to 
security screening shortfalls, wait times in the Nation's airports have 
increased.
    Recently, TSA has come under fire about the passenger wait times 
and the extravagant bonuses that were paid to a former Assistant 
Administrator who oversaw security operations while TSA was known to 
have security lapses.
    High-profile incidents such as these, in addition to the TSA pay 
scale and benefits for its front-line personnel, have a devastating 
effect on the Transportation Security Officers that serve the public on 
a daily basis.
    The performance and morale of TSA personnel should be of utmost 
importance. However, many of the front-line employees, the 
Transportation Security Officers, are short-staffed and are often asked 
to work multiple shifts.
    In addition, while these TSOs are Federal Government employees, 
they are not subject to general civil service provisions that include 
collective bargaining rights, the ability to appeal adverse actions to 
the Independent Merit Systems Protection Board, and whistleblower 
protections.
    I believe that the TSA employees, especially those engaged in 
security screening, should be subject to civil service provisions and 
that is why I am an original cosponsor of H.R. 4488, the ``Rights for 
Transportation Security Officers Act of 2016''.
    This bill, authored by the Ranking Member of the Full Committee, 
provides the Transportation Security Administration's (TSA) screening 
workforce with long-overdue rights, the same rights afforded to most 
Federal workers under Title 5.
    Both the DHS Office of Inspector General and the Government 
Accountability Office have examined allegations of misconduct by TSA 
personnel.
    Two offenses accounted for more than half of all cases: 1. 
Attendance and Leave and 2. Screening and Security.
    Based on its analysis, GAO found that TSA did not have a proper 
process for conducting reviews of misconduct to verify whether TSA 
personnel at airports were complying with policies and procedures.
    TSA implemented the recommended changes; however, allegations of 
misconduct increased by almost 30% from 2013 to 2015.
    In fiscal year 2015 alone, the DHS OIG received approximately 1,000 
complaints either from or about a TSA employee, most of which related 
to allegations of misconduct.
    Specific instances of misconduct included retaliation against 
whistleblowers, mismanagement, and security failures.
    It has also been reported that TSA personnel are afraid to speak up 
about problems at the agency in fear of being unfairly punished or 
reassigned to lower positions.
    In fact, TSA management has been described by staff as ``the 
biggest bullies in the Federal Government.''
    Allegations of retaliation and mismanagement drastically impact the 
workplace.
    Moreover, it appears that rank-and-file personnel are disciplined 
at a much higher rate than management.
    It seems as if management is disciplined when there are high-
profile cases or media attention that brings negative attention to TSA.
    For the sixth year in a row, DHS saw an overall drop in employee 
engagement and morale according to the 2015 Federal Employee Viewpoint 
Survey.
    What is even more concerning is TSA in particular is ranked one of 
the worst places to work in the Federal Government, coming in 313 out 
of 320 in the annual survey by the Partnership for Public Service.
    Dr. Gowadia, today, I look forward to hearing from you how TSA 
plans on better managing its workforce, starting from the top, and 
addressing low morale.
    I also look forward to hearing the changes TSA has implemented as a 
result of the OIG and GAO investigations, particularly the mechanisms 
implemented to better hold senior management accountable.
    I would like to thank the TSO's for their diligent work under such 
intense responsibility and pressure--during the July 4 holiday travel 
period, TSA screened 10.7 million travelers, with average wait times in 
standard security lanes less than 10 minutes.
    Thanks to reprogrammed funding from Congress, TSA has been able to 
hire additional TSOs and increase overtime to address staffing 
shortages.

    Mr. Perry. The Chair thanks the gentlelady. The Chair now 
recognizes Chairman of the Subcommittee on Transportation 
Security, the gentleman from New York, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    I am going to echo Mrs. Watson Coleman's sentiments that I 
do applaud the efforts of the TSA front-line workers, the 
officers. But, you know, of course, we cannot stand--good 
performance then can be better. So, that is why we are here. 
That is why we always must strive to be the greatest that we 
can do in our jobs, and provide the greatest security we can 
for our country in an ever-evolving threat environment.
    Since the creation of the TSA after the terror attacks of 
September 11, Congress has had to step in numerous times when 
the agency has failed to appropriately manage its personnel. 
These instances have included countless allegations of 
misconduct from TSA from the top to bottom.
    As Chairman of the Transportation Security Subcommittee, I 
am particularly invested in and concerned about ensuring that 
the good men and women who protect our Nation's critical 
transportation systems every day are not only provided with the 
resources they need, but are also surrounded by an ethical and 
positive work culture.
    Such a culture currently does not exist within TSA. In 
fact, in recent months a number of disturbing accounts of 
misconduct and just poor conduct on the part of high-ranking 
TSA officials as well as front-line workers at airports, and 
Federal air marshals, have contributed to a discouraging 
picture of a bureaucracy struggling to meet the demands of an 
increased threat environment and spiking passenger volume.
    All of this at a time at which we are facing unprecedented 
threats to our National security. In the last several months, 
terrorists have bombed 2 and potentially 3 commercial aircraft, 
and 2 of which were likely inside jobs of employees at 
airports, and have orchestrated devastating attacks against 
transportation modes in Brussels and Istanbul.
    Frankly, this is not the time to be dealing with misconduct 
or corruption in our own ranks. The risk is simply too great. 
Administrator Neffenger, for his part, has instituted a number 
of reforms to right the ship. One of which I very much applaud 
was a ludicrous practice of having subordinates recommending 
bonuses for their superiors.
    Absolute definition of insanity. How that ever happened in 
a Federal agency is beyond me. I am glad you stopped it. I want 
to be assured through our questions a little later today, 
Doctor, that that has in fact stopped and will not happen 
again.
    Despite these efforts, however, much more needs to be done 
to give the American people the security they need from a TSA 
that is responsive to reforms and ethical in its operations.
    As public servants, TSA personnel must be held to the 
highest ethical standards. We must be training up workers of 
the highest moral caliber if we are entrusting them with the 
lives of traveling Americans.
    But unfortunately, TSA management has often sought punitive 
actions against responsible employees who attempted to speak 
out against problems plaguing the agency, the whistleblowers, 
rather than taking their concerns seriously. This is 
unacceptable.
    Covering up or discouraging individuals from speaking out 
only perpetuates a negative culture and serves as a direct 
result and assault on employee morale. Employee misconduct, 
particularly the sort that compromises security and wastes the 
taxpayer dollars must not permitted to continue.
    It is because of this that our two subcommittees have 
conducted a joint investigation to assess the scope and depth 
of misconduct across the TSA work force. Resulting from this 
investigation, we are releasing a telling report on the 
challenges facing TSA and the actions needed to rectify years 
of baked-in mismanagement.
    Much has been written and discussed surrounding the 
abysmally low morale at TSA, of which Mrs. Watson Coleman just 
mentioned, which suffers the lowest employee satisfaction 
levels of any agency in the Federal Government.
    Rampant allegations of misconduct plaguing the agency in 
the news media and through word of mouth no doubt serve as a 
contributing factor to lower employee morale within TSA.
    The efforts to improve the culture at TSA must start with 
addressing the issue of employee misconduct. As my subcommittee 
has continued to investigate the insider threat to aviation 
security over the last year, I have become thoroughly convinced 
that stemming this conduct among TSA personnel and individuals 
with access to secure areas of airports is directly tied to 
mitigating insider treats to the security of the traveling 
public.
    The ease with which certain individuals have had accepted 
bribes and smuggled drugs and weapons through our Nation's 
airport terminals is of serious concern. While the issue 
certainly extends beyond just TSA personnel, TSA is on the 
front lines of improving access controls, detecting insider 
threats, and ensuring that its own house is in order, being 
held to the highest standards.
    I want to commend Chairman Perry's dedication to this issue 
and to developing this report. I look forward to continued work 
together to reform TSA into an efficient, effective, and an 
accountable organization.
    Oversight work like what we are doing today is what the 
American people expect and demand of the representatives in 
Congress. I am optimistic that we on this committee and 
together with TSA can create a better culture within the agency 
and ultimately improve the security of the traveling public.
    With that, I yield back, Mr. Chairman.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                              July 7, 2016
    Since the creation of the Transportation Security Administration 
after the terror attacks of September 11, Congress has had to step in 
numerous times when the agency has failed to appropriately manage its 
personnel. These instances have included countless allegations of 
misconduct throughout TSA from top to bottom. As Chairman of the 
Transportation Security Subcommittee, I am particularly invested in, 
and concerned about, ensuring that the good men and women who protect 
our Nation's critical transportation systems everyday are not only 
provided with the resources they need, but are also surrounded by an 
ethical and positive work culture.
    Such a culture currently does not exist within TSA. In fact, in 
recent months, a number of disturbing accounts of misconduct on the 
part of high-ranking TSA officials, as well as front-line workers at 
airports and Federal Air Marshals, have contributed to a discouraging 
picture of a bureaucracy struggling to meet the demands of an increased 
threat environment and spiking passenger volume. All of this at a time 
in which we are facing unprecedented threats to our security. In the 
last several months, terrorists have bombed two--and potentially 
three--commercial aircraft, and have orchestrated devastating attacks 
against transportation modes in Brussels and Istanbul. Frankly, this is 
not the time to be dealing with misconduct or corruption within our own 
ranks. The risk is simply too great.
    Administrator Neffenger, for his part, has instituted a number of 
reforms to right the ship. Despite these efforts, however, much more 
needs to be done to give the American people the security they need 
from a TSA that is responsive to reforms and ethical in its operations. 
As public servants, TSA personnel must be held to the highest ethical 
standards and we must be training up workers of the highest moral 
caliber if we are entrusting them with the lives of traveling 
Americans. Unfortunately, TSA management has often sought punitive 
actions against responsible employees who have attempted to speak out 
against the problems plaguing the agency, rather than taking their 
concerns seriously. This is unacceptable. Covering up or discouraging 
individuals from speaking out only perpetuates a negative culture and 
serves as a direct assault on employee morale. Employee misconduct, 
particularly the sort that compromises security and wastes taxpayer 
dollars, must not be permitted to continue. It is because of this that 
our two subcommittees have conducted a joint investigation to assess 
the scope and depth of misconduct across the TSA workforce. Resulting 
from this investigation, we are releasing a telling report on the 
challenges facing TSA and the actions needed to rectify years of 
mismanagement.
    Much has been written and discussed surrounding the abysmally low 
morale at TSA, which suffers the lowest employee satisfaction levels of 
any agency in the Federal Government. Rampant allegations of misconduct 
plaguing the agency in the news media and through word of mouth no 
doubt serve as a contributing factor to low employee moral within TSA. 
Any efforts to improve the culture at TSA must start with addressing 
the issue of employee misconduct. As my subcommittee has continued to 
investigate the insider threat to aviation security over the last year, 
I have become thoroughly convinced that stemming misconduct among TSA 
personnel and individuals with access to secure areas of airports is 
directly tied to mitigating insider threats to the security of the 
traveling public. The ease with which certain individuals have accepted 
bribes and smuggled drugs and weapons through our Nation's airport 
terminals is of serious concern. While the issue certainly extends 
beyond just TSA personnel, TSA is on the front lines of improving 
access controls, detecting insider threats, and ensuring that its own 
house is in order and being held to the highest standards.
    I commend Chairman Perry's dedication to this issue and to 
developing this report, and I look forward to continuing to work 
together to reform TSA into an efficient, effective, and accountable 
organization. Oversight work like what we are doing today is what the 
American people expect of their representatives in Congress, and I am 
optimistic that we on this committee and together with TSA can create a 
better culture within the agency and ultimately improve the security of 
the traveling public.

    Mr. Perry. The Chair thanks the gentleman from New York.
    The Chair now acknowledges the absence of the Ranking 
Member of the Subcommittee on Transportation Security, the 
gentlelady from New York, Miss Rice. She cannot be with us at 
this time. Should she be able to attend we will defer to her at 
that time.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statements of Ranking Members Rice and Thompson 
follow:]
               Statement of Ranking Member Kathleen Rice
                              July 7, 2016
    In light of the recent attacks at airports in Istanbul and 
Brussels, I think we are all more cognizant than ever of the importance 
of TSA's mission. I think those attacks have also made us more aware of 
the increasing complexity of that mission, as TSA must confront not 
only the threat of terrorists trying to sneak weapons or explosives 
past checkpoints and on to planes, but also the threat of attacks on 
soft targets like the public areas of airports.
    Right now, I think TSA is in the midst of sort of a perfect storm. 
On the one side, we have the constant and evolving threat of terrorism. 
On the other, we have record numbers of travelers passing through 
American airports, and an ever-increasing demand for speed and 
efficiency. And in the middle of it all, we have an administration that 
has struggled to recruit and retain the highly-skilled workforce that 
it needs to carry out its mission and achieve the right balance between 
security and efficiency.
    So as we assess allegations of misconduct and mismanagement within 
TSA, we have to be aware of the fact that such behavior has real and 
direct implications for our National security.
    In 2013, GAO examined how TSA investigates and adjudicates cases of 
employee misconduct, and issued a report with four recommendations for 
how TSA can strengthen these processes.
    I understand that TSA concurred with and has implemented all four 
recommendations. But I'm concerned about the fact that the process for 
adjudicating misconduct by Transportation Security Officers remains 
different than that for other TSA employees--and I hope that our 
witnesses can shed some light on why that is, and whether a more 
uniform adjudication process would better serve TSA's mission.
    In April and May of this year, the Committee on Oversight and 
Government Reform held hearings on mismanagement and misconduct at TSA.
    During their first hearing, OGR heard testimony from TSA employees 
who recounted instances of intimidation, retribution, and improper 
reassignments.
    Following that hearing, the same panel questioned Administrator 
Neffenger on bonuses given to senior officials, and we learned that 
over the course of several months, one individual who was responsible 
for overseeing the TSA's Office of Security Operations had been given a 
bonus of $90,000. Ms. Gowadia, I hope that you can tell us what changes 
TSA has made to prevent such actions and better protect taxpayer 
resources.
    I mentioned earlier that one of the problems facing TSA--and one 
that I know Admiral Neffinger is working hard to address--is the low 
morale within TSA. According to the Best Places to Work in the Federal 
Government, TSA ranked 313 out of 320 Federal agencies--and that 
certainly adds to the administration's problems with recruitment and 
retention.
    But at the same time, TSA's Domestic Nuclear Detection Office has 
been ranked among the best places to work in the Federal Government--so 
I'm eager to hear how TSA is working to replicate practices from that 
office within the broader workforce.
    TSA's workforce is tasked with a tremendous responsibility, and 
Transportation Security Officers, who make up the majority of that 
workforce, perform what is often a thankless job.
    They are on the front line of our aviation security efforts, 
ensuring that prohibited items are not able to be brought on board an 
aircraft, while also evolving to better confront the threat of attacks 
on soft targets within airports.
    This time last year, a leaked OIG report caused them to refocus and 
tailor their efforts to ensure that they do not miss threat items at 
checkpoints. Security effectiveness was the top priority.
    Recently, not even a year later, TSOs were facing criticism for 
long lines at airports, even though the issues causing wait times were 
systemic and not necessarily tied to their performance. The priority 
shifted to efficiency.
    So I hope that Deputy Administrator Gowadia can talk about to what 
extent those challenges may be related to some allegations against 
these officers, as well as how many allegations of misconduct are 
adjudicated and found to be valid versus those where no instance of 
wrongdoing is found.
    Again, I think it's important to remain aware of the fact that with 
TSA, even more so than many other agencies and departments, 
mismanagement and misconduct have direct National security consequences 
and cannot be tolerated. So I hope that our conversation today will 
give us a more complete understanding of how prevalent such behavior is 
within TSA and how it is being addressed, so that we can focus on how 
we can better combat perhaps the most pressing threat facing TSA and 
the American aviation industry--that of attacks on soft targets like 
the public areas of airports.
                                 ______
                                 
             Statement of Ranking Member Bennie G. Thompson
                              July 7, 2016
    In light of the recent attacks at airports in Istanbul and 
Brussels, I think we are all more cognizant than ever of the importance 
of TSA's mission. I think those attacks have also made us more aware of 
the increasing complexity of that mission, as TSA must confront not 
only the threat of terrorists trying to sneak weapons or explosives 
past checkpoints and onto planes, but also the threat of attacks on 
soft targets like the public areas of airports.
    Right now, I think TSA is in the midst of sort of a perfect storm. 
On the one side, we have the constant and evolving threat of terrorism. 
On the other, we have record numbers of travelers passing through 
American airports, and an ever-increasing demand for speed and 
efficiency. And in the middle of it all, we have an administration that 
has struggled to recruit and retain the highly-skilled workforce that 
it needs to carry out its mission and achieve the right balance between 
security and efficiency.
    So as we assess allegations of misconduct and mismanagement within 
TSA, we have to be aware of the fact that such behavior has real and 
direct implications for our National security. In 2013, GAO examined 
how TSA investigates and adjudicates cases of employee misconduct, and 
issued a report with four recommendations for how TSA can strengthen 
these processes.
    I understand that TSA concurred with and has implemented all four 
recommendations. But I'm concerned about the fact that the process for 
adjudicating misconduct by Transportation Security Officers remains 
different than that for other TSA employees--and I hope that our 
witnesses can shed some light on why that is, and whether a more 
uniform adjudication process would better serve TSA's mission.
    In April and May of this year, the Committee on Oversight and 
Government Reform held hearings on mismanagement and misconduct at TSA. 
During their first hearing, OGR heard testimony from TSA employees who 
recounted instances of intimidation, retribution, and improper 
reassignments.
    Following that hearing, the same panel questioned Administrator 
Neffenger on bonuses given to senior officials, and we learned that 
over the course of several months, one individual who was responsible 
for overseeing the TSA's Office of Security Operations had been given a 
bonus of $90,000.
    Ms. Gowadia, I hope that you can tell us what changes TSA has made 
to prevent such actions and better protect taxpayer resources.
    I mentioned earlier that one of the problems facing TSA--and one 
that I know Admiral Neffinger is working hard to address--is the low 
morale within TSA. According to the Best Places to Work in the Federal 
Government, TSA ranked 313 out of 320 Federal agencies--and that 
certainly adds to the administration's problems with recruitment and 
retention.
    But at the same time, DHS's Domestic Nuclear Detection Office has 
been ranked among the best places to work in the Federal Government--so 
I'm eager to hear how TSA is working to replicate practices from that 
office within the broader workforce.
    TSA's workforce is tasked with a tremendous responsibility, and 
Transportation Security Officers, who make up the majority of that 
workforce, perform what is often a thankless job.
    They are on the front line of our aviation security efforts, 
ensuring that prohibited items are not able to be brought on board an 
aircraft, while also evolving to better confront the threat of attacks 
on soft targets within airports.
    This time last year, a leaked OIG report caused them to refocus and 
tailor their efforts to ensure that they do not miss threat items at 
checkpoints. Security effectiveness was the top priority.
    Recently, not even a year later, TSOs were facing criticism for 
long lines at airports, even though the issues causing wait times were 
systemic and not necessarily tied to their performance. The priority 
shifted to efficiency.
    So I hope that Deputy Administrator Gowadia can talk about to what 
extent those challenges may be related to some allegations against 
these officers, as well as how many allegations of misconduct are 
adjudicated and found to be valid versus those where no instance of 
wrongdoing is found.
    Again, I think it's important to remain aware of the fact that with 
TSA, even more so than many other agencies and departments, 
mismanagement and misconduct have direct National security consequences 
and cannot be tolerated. So I hope that our conversation today will 
give us a more complete understanding of how prevalent such behavior is 
within TSA and how it is being addressed, so that we can focus on how 
we can better combat perhaps the most pressing threat facing TSA and 
the American aviation industry--that of attacks on soft targets like 
the public areas of airports.

    Mr. Perry. We are pleased to have a distinguished panel of 
witnesses before us today. The witnesses' entire written 
statement will appear in the record.
    The Chair will introduce all of the witnesses first, or 
both of them, and then recognize each of you for your 
testimony.
    Dr. Huban Gowadia, yes, is TSA's deputy administrator. 
Prior to her appointment to this position in May 2016, so it is 
roughly 2 months ago, she was director of Domestic Nuclear 
Detection Office where she led DHS's efforts related to 
radiological and nuclear detection.
    She began her Federal career with the Federal Aviation 
Administration in 2000, working on aviation security 
technologies and policy. She is a graduate of the University of 
Alabama, and has a PhD from the Pennsylvania State University. 
Congratulations. Welcome to the committee, once again.
    Mr. Andrew Oosterbaan is the assistant inspector general 
for investigation at the DHS Office of Inspector General. His 
office investigates allegations of criminal, civil, and 
administrative misconduct involving DHS employees, contractors, 
grantees, and programs.
    Previously, Mr. Oosterbaan served at the Department of 
Justice's Criminal Division as a chief of child exploitation 
section and was an assistant United States attorney for the 
Southern District of Florida.
    We thank you for your service, sir, and welcome to the 
committee.
    Thank you all for being here today.
    The Chair recognizes Dr. Gowadia for her opening statement.

       STATEMENT OF HUBAN GOWADIA, DEPUTY ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Gowadia. Good morning, Chairman Perry, Chairman Katko, 
and the Ranking Member Watson Coleman, and distinguished 
Members of the subcommittee. Thank you for the opportunity to 
appear before you today. My colleagues at TSA and I appreciate 
your support in ensuring that we maintain the highest 
professional standards for our work force.
    As evidenced by the recent attacks in Istanbul and 
Brussels, terrorists continue to plot and execute attacks 
against the global transportation system. The United States 
faces persistent threats from terrorist groups around the 
world, as well as from home-grown violent extremist inspired by 
messages of hatred.
    These threats pose a challenging dynamic environment that 
demands the utmost dedication and professionalism for my 
employees, from front-line officers to senior leaders. TSA's 
greatest strength is its committed, professional work force.
    Administrative Neffenger and I are dedicated to providing a 
supportive environment for all our employees with an emphasis 
on values, standards, and accountability. Central to our 
success is a commitment to a common set of values focused on 
integrity, innovation, and team spirit, and to our agency's 
core principals which are to focus on mission, invest in 
people, and commit to excellence.
    To protect the Nation's transportation networks, we recruit 
and retrain highly capable individuals, reflective of the 
diverse public we serve. We invest in their training, provide 
them career paths for growth and development, ensure fair 
personnel practices at all levels of the agency, and identify 
and hold accountable those who engage in misconduct.
    TSA's recruitment and hiring strategy is focused on 
selecting the best individuals. All of our employees have 
successfully cleared an assessment program. This includes a 
thorough background check, and vetting against terrorist watch 
lists, as well as a criminal history records check.
    To ensure our work force continues to accomplish our 
security mission and to strengthen TSA's professional 
foundation by building future leaders, we have increased our 
investments in training and education programs.
    A common foundation of training will connect our work force 
to a unified culture and strengthen our focus on mission.
    We have expanded our leadership development opportunities 
with offerings that range from the rising leaders' development 
program for entry-level employees to the executive leadership 
program for transportation security executive service 
employees.
    Since January 2016, our newly-hired officers receive basic 
training at the TSA Academy which is located at FLETC. At the 
Academy, officers are immersed in our mission, our history and 
values, and high ethical standards.
    They undergo realistic training that prepares them for the 
demands of the screening mission. Each of our training and 
professional development programs reinforces integrity, duty to 
mission, and a commitment to excellence.
    We are delivering the professional TSA that the American 
public deserves. Integrity is a core value at TSA. Appropriate 
conduct is the responsibility of every employee. All employees 
are responsible for reporting any known or suspected violation 
of the law, rule, regulation, or policy.
    In concert with our colleagues at the office of Inspector 
General we investigate all allegations of employee misconduct 
and ensure appropriate disposition. Our disciplinary policies 
hold accountable individuals who engage in misconduct while 
upholding due process rights and ensuring equitable treatment 
for employees across the agency.
    As part of our continuing evolution we are exploring ways 
to improve our human capital practices. We are reviewing our 
bonus payment procedures for our front-line officers, and have 
imposed new strict controls on bonuses for senior executives.
    Our approach to leadership is driven by our dedication to 
our security mission. We are holding ourselves accountable to 
high standards of effectiveness and are supporting our front-
line officers in their critical counterterrorism mission.
    Every day the men and women of TSA display passion, 
patriotism, and a sense of duty while performing demanding 
tasks under very difficult circumstances.
    I thank you again for this opportunity to appear before you 
today. If I may close on a personal request, I would like to 
recognize Mrs. Watson Coleman's shout-out to our TSOs. If you 
are so inclined the next time you encounter one, would you 
please stop and say thank you? I know your kindness will be 
deeply appreciated. Thank you.
    [The prepared statement of Dr. Gowadia follows:]
                  Prepared Statement of Huban Gowadia
                              July 7, 2016
    Good morning, Chairmen Perry and Katko, Ranking Members Watson 
Coleman and Rice, and distinguished Members of the subcommittees. Thank 
you for the opportunity to appear before you today to discuss the 
Transportation Security Administration's (TSA) counterterrorism 
workforce, which safeguards the traveling public and secures our 
Nation's transportation systems. We appreciate the committee's support 
in ensuring TSA maintains the highest professional standards for our 
workforce.
    Both in the field and at headquarters, the TSA workforce is 
vigilant in ensuring the security of people and commerce that flow 
through our Nation's vast transportation networks. TSA employs risk-
based, intelligence-driven operations to prevent terrorist attacks and 
to reduce the vulnerability of the Nation's transportation system to 
terrorism. At all times, our goal is to maximize transportation 
security to stay ahead of evolving terrorist threats while protecting 
privacy and facilitating the flow of legitimate travel and commerce.
    It is critical that we employ a culture of operational evolution 
that constantly reevaluates assumptions, plans, and processes to 
achieve the highest level of mission excellence to counter the plans of 
our determined adversaries. The United States continues to face 
persistent threats from terrorist groups around the world, as well as 
from home-grown violent extremists inspired by messages of hatred to 
harm the American traveling public. These threats are complex and 
diffuse, and pose a challenging, dynamic environment that demand our 
utmost dedication and professionalism. To address these complex 
threats, the TSA employs Transportation Security Officers (TSO) across 
more than 430 airports and deploys Federal Air Marshals (FAM) both for 
flight coverage as well as ground-based assignments, such as Visible 
Intermodal Prevention and Response (VIPR) teams. TSA's inspectors 
ensure compliance with Federal statutes and regulations. TSA's 
personnel are committed to reducing the vulnerability of the Nation's 
transportation system to terrorism. These dedicated employees occupy 
the front line in executing the agency's transportation security duties 
in support of our Nation's counterterrorism efforts.
                         administrator's intent
    Mission success depends on a shared understanding of objectives, 
unity of purpose, and alignment of values and principles. In January 
2016, Administrator Peter Neffenger published TSA's first 
Administrator's Intent to articulate those objectives, the approach we 
will pursue in accomplishing our essential counterterrorism mission, 
and the values and principles that define TSA.
    Central to our success is a commitment to a common set of values: 
Integrity, innovation, and team spirit. Building on these, the 
Administrator's Intent outlines the principles we care about as an 
agency, which are: Focus on Mission, Invest in People, and Commit to 
Excellence.
  <bullet> Focus on Mission.--Focusing on our mission prioritizes our 
        resources and operations to meet the threat. It also informs 
        how we must invest in our workforce to achieve mission success.
  <bullet> Invest in People.--Our culture, effectiveness, and mission-
        readiness are a direct result of consistent and career-long 
        investment in people and set the foundation for agency success. 
        Value-based leadership, a foundation of training, recruiting 
        and retaining talent, and appropriate recognition are core 
        elements of our approach.
  <bullet> Commit to Excellence.--Our standard is excellence in all 
        mission areas. We operate in a global environment where the 
        threat remains persistent and evolving. As we pursue our 
        counterterrorism mission, we will relentlessly pursue 
        excellence through a culture of constant improvement, 
        organizational adaptation, and discipline.
                   workforce training and development
    On a daily basis, the men and women of TSA display passion, 
patriotism, and sense of duty while performing demanding tasks under 
difficult circumstances. In order to ensure our workforce is able to 
continue accomplishing its vital mission, Administrator Neffenger and I 
are committed to providing a supportive working environment for all TSA 
employees with an emphasis on standards, values, and accountability. To 
this end, we have increased our investments in training and education 
programs to strengthen TSA's professional foundation and build future 
leaders. A common foundation of training will connect our workforce to 
a unified culture, strengthen the focus on mission, and build esprit de 
corps. As a result, TSA has expanded its leadership development 
opportunities with offerings that range from the Rising Leaders 
Development Program for entry-level employees, to the Executive 
Leadership Program for Transportation Security Executive Service (TSES) 
employees, which is designed to inspire ethical leadership in a complex 
and demanding homeland security environment. In early 2017, we will be 
launching mandatory leadership training for all newly-promoted senior-
level TSA employees. Additionally, in January 2016, TSA began sending 
newly-hired officers to basic training at the TSA Academy, located at 
the Federal Law Enforcement Training Center in Glynco, Georgia. While 
at the Academy, new hires are immersed in our mission, history, values, 
and high ethical standards. All of these vital training and 
professional development programs reinforce professional integrity, 
duty to mission, and commitment to excellence.
                         disciplinary processes
    Integrity is a core value at TSA, and as the Deputy Administrator I 
strive to motivate our employees to fulfill their duties while 
upholding TSA's high standards of professionalism. TSA employees are 
responsible for reporting any known or suspected violation of law, 
rule, regulation, policy, or Standard Operating Procedure to any 
manager and/or to the TSA Office of Inspection (OOI). Allegations of 
employee misconduct are investigated and, in some cases, OOI 
investigators work with other law enforcement agencies.
    OOI refers allegations to the Department of Homeland Security's 
Office of Inspector General (DHS OIG) for right of first refusal to 
investigate. If the OIG does not accept the case for investigation, the 
matter is referred back to OOI or local management for an 
administrative inquiry. After the completion of an investigation of 
alleged misconduct, OIG or OOI investigators produce a Report of 
Investigation, which generally contains witness statements, relevant 
documents, and other evidence as well as an agent's summary of 
investigative activities.
    Completed reports and administrative inquiries are referred to 
TSA's Office of Professional Responsibility (OPR) or the appropriate 
management official for adjudication. TSA's OPR provides consistency in 
misconduct penalty determinations and facilitates an expeditious, 
standardized adjudication process. OPR adjudicates all allegations of 
misconduct investigated by the DHS OIG or involving senior-level 
employees or law enforcement officers. OPR may also exercise 
jurisdiction over any matter the assistant administrator for OPR 
determines should be reviewed and adjudicated by OPR. Cases that fall 
outside of OPR's jurisdiction are handled at the supervisory level.
    TSA's Table of Offenses and Penalties provides guidance for 
determining appropriate corrective, disciplinary, or adverse actions 
for common offenses. Disciplinary penalties range from a letter of 
reprimand to removal. With respect to screening workforce employees, 
TSA requires removal for certain offenses, including failed drug or 
alcohol testing, sleeping on duty while assigned to a security 
activity, intentional serious security breaches, and cases involving 
theft. When removal is not required, the Table includes a recommended 
penalty range, as well as aggravated and mitigated penalty ranges.
    TSA employs an important accountability tool for rapidly removing 
TSOs when egregious or serious misconduct is substantiated. The one-
step removal process allows management officials to expeditiously 
remove an employee while ensuring due process. In the one-step removal 
process, a TSO may be issued a removal action after a management 
official has a meeting with the employee to discuss the incident or 
allegation, advise the employee of the possible consequences, and allow 
the employee an opportunity to respond to the allegations. The offenses 
for which the one-step removal process may be used include cases 
involving theft, illegal drugs, on-duty alcohol use, intentional 
serious security breaches, sleeping on duty while assigned to a 
security activity, and arrests for specific serious offenses set forth 
under 49 C.F.R.  1542.209(d).
    Most disciplinary and adverse actions are handled through a two-
step process. Pursuant to the two-step process, a TSA management 
official will first issue a notice of the proposed action and provide 
the employee with the opportunity to review the evidence supporting the 
charge(s) and to respond orally and/or in writing. Second, another 
management official will consider the entire record, including the 
input from the affected employee, and will issue a written decision. 
OPR issues the proposal and decision notices in the matters it 
adjudicates.
    TSA's disciplinary policies and processes are designed to hold 
accountable individuals who engage in misconduct while upholding due 
process rights and ensuring equitable treatment for employees at all 
levels of the agency. TSA empowers its employees through training and 
professional development opportunities, but also takes prompt and 
appropriate action to investigate and adjudicate misconduct if an 
employee falls short of our high standards.
                               conclusion
    TSA's greatest strength is its committed, professional workforce. 
We must continue to recruit and retain highly-capable individuals 
dedicated to, and focused on, our core mission. We are committed to 
maintaining an environment where employees and leaders can develop, 
employees have the tools to be successful, and the workforce is 
motivated by TSA's mission, vision, and strategic imperatives. To 
provide the most effective transportation security, the workforce must 
constantly be training and improving.
    Our workforce places a strong emphasis on values, performance, and 
accountability. The traveling public expects efficient and effective 
screening and to be treated with dignity and respect, and we will 
uphold these principles by continually reinforcing this message of 
dignity and respect in training for our front-line workforce and 
management alike. Thank you for the opportunity to appear before you 
today and for the committee's support of TSA's important mission.

    Mr. Perry. Thank you, Dr. Gowadia.
    The Chair recognizes Mr. Oosterbaan for his opening 
statement.

STATEMENT OF ANDREW OOSTERBAAN, ASSISTANT INSPECTOR GENERAL FOR 
      INVESTIGATIONS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Oosterbaan. Good morning. Chairman Perry, Chairman 
Katko, Ranking Member Watson Coleman, and distinguished Members 
of the subcommittee, thank you very much for inviting me to 
testify about TSA misconduct.
    My testimony today will focus on the Office of Inspector 
General's role in investigating misconduct at TSA. I will 
discuss briefly some examples of our TSA misconduct 
investigations, and I will highlight the importance of 
whistleblowers to our mission.
    Our office is charged by Congress with preventing and 
detecting fraud and abuse in agency programs and activities, 
conducting investigations and audits, and recommending policies 
to promote efficiency, economy, and effectiveness.
    We play a critical role in ensuring transparent, honest, 
effective, and accountable Government. The personal and 
organizational independence of OIG investigators free to carry 
out their work without interference by agency officials is 
essential to maintaining the public trust, not only in the 
I.G.'s work, but in the work force of DHS as a whole.
    The American public must fundamentally trust the Government 
employees will be held accountable for crimes or serious 
misconduct by independent fact finding.
    As the Assistant Inspector General for Investigations, I 
lead more than 200 criminal investigators in our Office of 
Investigations. We investigate acts of criminal, civil, and 
administrative misconduct involving DHS employees, contractors, 
grantees, and programs.
    These investigations can result in criminal prosecutions, 
fines, civil monetary penalties, administrative sanctions, and 
personnel actions. We also provide oversight and monitor the 
investigative activity of DHS's various internal affairs 
offices.
    We typically receive allegations of misconduct through our 
hotline or website, or from another DHS component. After 
assessing an allegation, we decide whether to investigate the 
allegation or refer it to the component's internal affairs 
office or another agency for their decision whether to 
investigate or take no action.
    If we decide to investigate, we develop evidence seeking to 
substantiate or not substantiate the allegation and then write 
a report of investigation. For administrative or noncriminal 
misconduct, we provide our investigative findings to the 
effective component to inform its decision regarding 
disciplinary action, but we are not involved in that decision.
    For criminal matters OIG presents its investigative 
findings to the Department of Justice for determination of 
whether judicial action will be pursued.
    In fiscal year 2015, we received almost 18,000 complaints, 
and we initiated 664 investigations. Our investigations 
resulted in 104 criminal convictions and about 37 personnel 
actions. We are on pace to exceed these numbers in fiscal year 
2016.
    The OIG has an important role in addressing misconduct at 
the TSA. The integrity of TSA's work force is an important 
factor in the safety of our airports, and any acts of 
wrongdoing can diminish the public's confidence in their 
safety.
    In fiscal year 2015, we received nearly 1,000 complaints 
related to TSA. And we decided to investigate about 40 of those 
complaints based on the seriousness of the allegation, the rank 
or grade of the individual involved, and whether OIG's uniquely 
independent role was necessary to ensure that the case was 
handled appropriately.
    Let me give you some examples of our TSA-related 
investigations. As Chairman Katko had mentioned, in 2015 we 
initiated an investigation on a complaint that former TSA 
Assistant Administrator Kelly Hoggan improperly received 
excessive cash awards recommended by a subordinate.
    Our investigation confirmed that between November 2013 and 
November 2014 Mr. Hoggan was given 6 $10,000 special act awards 
and a seventh $8,000 special act award. These awards were an 
addition to annual performance awards of over $12,000 each for 
2013 and 2014.
    While our investigation did not uncover any criminal or 
administrative wrongdoing, it did reveal that TSA had 
inadequate internal controls over the awards process, and that 
TSA's internal written policy was unclear.
    As a result of our investigation, TSA has tightened and 
clarified its written policies and practices. Some of OIG's 
investigations of TSA personnel do involve serious crimes.
    For instance, we investigated a transportation security 
officer who conspired with others outside of TSA to smuggle 
undocumented aliens through an international airport. The TSO 
was prosecuted and sentenced to 10 months' incarceration.
    In another case, the supervisory TSO was convicted for 
helping a drug-trafficking organization to smuggle large 
quantities of narcotics through an airport in the Caribbean. 
The TSO was prosecuted and sentenced to 87 months of 
imprisonment.
    We also investigated a supervisory TSO and a lead TSO for 
using cocaine while on duty. Both employees were convicted in 
State court.
    We investigated a TSO for transporting a 14-year-old with 
intent to commit sexual acts. He was sentenced to 188 months of 
imprisonment.
    I want to end by noting the critically important role that 
whistleblowers play in ensuring transparent, honest, effective, 
and accountable Government. The DHS employees who step forward 
to disclose fraud, waste, and abuse or other wrong-doing are 
invaluable to our mission, as are the Federal laws providing 
the protection from retaliation.
    In the TSA context, for example, we investigated a TSO's 
whistleblower report that he had been prevented by a supervisor 
from stopping a former member of a domestic terrorist group and 
notorious convicted felon from using PreCheck's expedited 
screening, for which he should have been ineligible.
    As a result of the TSO's disclosure and the resulting 
inspection, standard procedures now allow TSOs to use 
discretion to deny expedited screening in such circumstances 
and TSA is in the process of changing the program which had 
inappropriately granted PreCheck to this traveler.
    Over the last 2 years our office has made changes to our 
whistleblower protection program designed to raise our profile 
within DHS to encourage reporting of fraud, waste, and abuse, 
and to ensure that we have a program that is as good as or 
better than any other.
    To accomplish this, we have taken some important steps. We 
imported an OIG senior executive to be the DHS whistleblower 
ombudsman. We vastly improved the intake and investigative 
process for whistleblower allegations. We have specially-
trained investigators and we obtained official certification 
from the Office of Special Counsel that our program meets 
statutory requirements.
    We are confident that these changes will greatly enhance 
our whistleblower program.
    Mr. Chairman, this concludes my testimony. I look forward 
to your questions.
    [The prepared statement of Mr. Oosterbaan follows:]
                Prepared Statement of Andrew Oosterbaan
                              July 7, 2016
    Chairman Katko, Chairman Perry, Ranking Member Rice, Ranking Member 
Watson Coleman, and Members of the subcommittees: Thank you for 
inviting me to testify on TSA misconduct.
    My testimony will focus on the Office of Inspector General's (OIG) 
role in investigating misconduct at TSA and the important role that 
whistleblowers play in bringing waste, fraud, and abuse to the 
attention of our office. In addition, I will address a particular OIG 
investigation regarding the award of TSA bonuses that has been of 
interest to this panel and mention a few other investigations as 
examples of our work related to TSA.
             oig's role in investigating misconduct at tsa
    Through the Inspector General Act of 1978 (IG Act), Congress 
established Inspectors General, in part, in response to concerns about 
integrity and accountability and failures of other forms of Government 
oversight. The IG Act charged Inspectors General, among other tasks, 
with preventing and detecting fraud and abuse in agency programs and 
activities; conducting investigations and audits; and recommending 
policies to promote efficiency, economy, and effectiveness. The 
position of Inspector General was strengthened by provisions in the IG 
Act establishing independence from Department officials, providing 
powers of investigation and subpoena, and reporting to the Secretary as 
well as Congress.
    Inspectors General play a critical role in ensuring transparent, 
honest, effective, and accountable Government. The personal and 
organizational independence of OIG investigators, free to carry out 
their work without interference by agency officials, is essential to 
maintaining the public trust not only in OIG's work, but in the DHS 
workforce as a whole. The American public must fundamentally trust that 
Government employees will be held accountable for crimes or serious 
misconduct by an independent fact finder.
OIG and DHS Internal Affairs Offices
    DHS Management Directive (MD) 0810.1 implements the authorities of 
the Inspector General Act in DHS. MD 0810.1 establishes OIG's right of 
first refusal to conduct investigations of criminal misconduct by DHS 
employees and the right to supervise any such investigations conducted 
by DHS internal affairs offices. The MD requires that all allegations 
of criminal misconduct by DHS employees and certain other allegations 
received by the components--generally those against higher-ranking DHS 
employees--be referred to OIG immediately upon receipt of the 
allegations.
    Many DHS components, including TSA, have an internal affairs office 
that conducts investigations. Under the authority of the IG Act, OIG 
has oversight responsibility for those internal affairs offices. This 
oversight responsibility generally takes three forms.
  <bullet> First, we determine upon receipt of the complaint whether 
        the allegations are the type that should be investigated by OIG 
        rather than the component's internal affairs office. We have 
        the absolute right under the Inspector General Act to conduct 
        any investigation without interference. Except for a few narrow 
        categories of matters (which must be reported to Congress), not 
        even the Secretary can prevent the OIG from conducting an 
        investigation.
  <bullet> Second, for those investigations the internal affairs 
        offices conduct, we have the authority to receive reports on 
        and monitor the status of investigations.
  <bullet> Lastly, we conduct oversight reviews of DHS component 
        internal affairs offices to ensure compliance with applicable 
        policies, reporting requirements, and accepted law enforcement 
        practices. Our reviews are conducted on a 3-year cycle and our 
        findings are published on our website. In this fiscal year, we 
        have reviewed two component internal affairs offices and made 
        more than 45 recommendations for improvement. In 2015 and the 
        first half of 2016, we reviewed three component internal 
        affairs offices and made 70 recommendations for improvement. 
        Our recommendations ranged from suggestions for improving the 
        processing of allegations to counseling a component to seek the 
        proper investigative authority for its internal affairs office. 
        These reviews are critical to ensuring that misconduct 
        allegations, whistleblowers, and those reporting allegations of 
        wrongdoing by DHS employees are treated with the seriousness 
        they deserve.
    Our process for addressing allegations of misconduct generally 
follows these steps:
    1. An allegation of misconduct is reported to OIG or other 
        appropriate office; if reported to an office other than OIG and 
        several criteria for seriousness are met, the component must 
        report the allegation to OIG.
    2. Whether the allegation was reported directly to OIG or through a 
        component, OIG will decide to investigate the allegation or 
        refer it to the component's internal affairs office; if 
        referred, the component can decide to investigate the 
        allegation or take no action.
    3. If OIG decides to investigate, we develop sufficient evidence to 
        substantiate or not substantiate an allegation and write a 
        report of investigation.
    4. For administrative or non-criminal misconduct, OIG provides its 
        investigative findings to the affected component, which uses 
        this information to decide whether discipline is warranted. We 
        are not involved in decisions regarding discipline after we 
        provide our investigative findings.
    5. For criminal matters, OIG presents its investigative findings to 
        the Department of Justice (DOJ) for a determination of whether 
        DOJ will pursue judicial action.
    The Department employs more than 240,000 employees (and nearly an 
equal number of contract personnel), including a large number of law 
enforcement officers and agents in U.S. Customs and Border Protection, 
U.S. Immigration and Customs Enforcement, the Secret Service, and the 
TSA. These officers and agents protect the President, our borders, 
travel, trade, and financial and immigration systems.
    In fiscal year 2015, we received almost 18,000 complaints. A 
substantial number of the complaints alleged that DHS personnel engaged 
in misconduct. We initiated 664 investigations; the remainder were 
referred to component internal affairs officers, other agencies, or 
were administratively closed. In fiscal year 2015, our investigations 
resulted in 104 criminal convictions and 37 personnel actions.
    Investigations against TSA personnel comprise a portion of our 
overall work. In the last fiscal year, we received about 1,000 
complaints either from or about TSA employees. We typically accept for 
investigation about 40 of those cases per year. Our criteria for case 
selection generally involves an assessment of the seriousness of the 
allegation, the rank or grade of the individual involved, and whether 
OIG's uniquely independent role is necessary to ensure that the case is 
handled appropriately.
                              tsa bonuses
    In March 2015, we initiated an investigation after receiving a 
complaint advising that former TSA Assistant Administrator Kelly Hoggan 
received six $10,000 cash awards during the period of approximately 1 
year. It was further alleged that the approving official and Mr. Hoggan 
were related and that nepotism was therefore motivating the awards.
    To address these allegations, our office reviewed pertinent records 
and interviewed TSA personnel involved in the award process. We 
confirmed that Mr. Hoggan was awarded six $10,000 Special Act Awards 
and a seventh $8,000 Special Act Award between November 2013 and 
November 2014. These Special Act Awards were in addition to annual 
Performance Awards for 2013 and 2014.
    We concluded that these cash awards did not violate law or TSA 
policy, and that there was no criminal conspiracy between Mr. Hoggan 
and others to personally enrich themselves by abusing the TSA awards 
system. We also found no evidence indicating that Mr. Hoggan was 
related to anyone within his chain of command.
    However, while this investigation did not uncover any criminal or 
administrative wrongdoing, it did reveal that TSA had inadequate 
internal oversight of the awards process and that TSA's internal 
written policy regarding cash awards contained unclear language. As the 
result of our investigation, TSA has tightened and clarified its 
written policies and practices to address these problems.
            examples of oig investigations of tsa misconduct
    The integrity of TSA's workforce is an important factor in the 
safety of our airports. And, while the percentage of TSA employees 
involved in crimes or serious misconduct may be small, any acts of 
wrongdoing can diminish the public's confidence in air safety.
    Some of the OIG's investigations of TSA personnel involve serious 
crimes. For instance, in 2012 we investigated a Transportation Security 
Officer (TSO) who conspired with others outside of TSA to smuggle 
Brazilian nationals through an international airport. For his role in 
the crime, the TSO was sentenced to 10 months' incarceration, followed 
by 36 months of supervised release.
    In a 2014 case, a supervisory TSO was convicted for assisting a 
drug trafficking organization responsible for smuggling large 
quantities of narcotics through an airport in the Caribbean. With the 
supervisory TSO's assistance, the organization was able to bypass 
airport security and smuggle the narcotics to couriers on the secure 
side of the airport for transport to the United States. The TSA was 
sentenced to 87 months of imprisonment and 2 years supervised release.
    Also in 2012, we investigated a supervisory TSO and a Lead TSO for 
using cocaine while on duty. Both employees were arrested, charged, and 
pled guilty in State court.
    Finally, in 2015 we investigated a TSO for transporting a 14-year-
old with the intent to commit sexual acts. He was sentenced to 188 
months' imprisonment followed by 120 months of supervised release.
                        whistleblower protection
    It is important to note the critically important role that 
whistleblowers play in ensuring transparent, honest, effective, and 
accountable Government. The DHS employees who step forward to disclose 
fraud, waste, abuse, and other wrongdoing are invaluable to our 
mission, as are the Federal laws providing them protection. Under these 
laws, managers are prohibited from retaliating against whistleblowers 
by taking or threatening to take any adverse personnel actions because 
they report misconduct. The IG Act also gives us the absolute right to 
protect the identity of our witnesses, who we depend on to expose 
fraud, waste, and abuse.
    DHS employees' contributions to the integrity and effectiveness of 
DHS by exposing poor management practices and wrongdoing have been well 
documented. In the TSA context, for example, we investigated a 
whistleblower's allegation that a notorious felon was granted expedited 
screening through PreCheck in 2014. The traveler was a former member of 
a domestic terrorist group and, while a member, was involved in 
numerous felonious criminal activities that led to arrest and 
conviction. After serving a multiple-year sentence, the traveler was 
released from prison.
    The traveler was sufficiently notorious through media coverage that 
a TSO recognized the traveler. Concerned, the TSO reviewed the 
traveler's boarding pass and realized that the traveler was PreCheck-
eligible. The TSO, aware of the traveler's disqualifying criminal 
convictions, notified his supervisor who directed him to take no 
further action and allow the traveler to proceed through the PreCheck 
lane.
    As a result of the TSO's subsequent disclosure and our report, TSA 
ultimately agreed to modify its standard operating procedures to 
clarify TSOs' and supervisory TSOs' authority in referring passengers 
with PreCheck boarding passes to standard screening lanes when they 
believe it is warranted. This change came after TSA initially disagreed 
with our recommendation regarding the Secure Flight program, however. 
(Allegation of Granting Expedited Screening through TSA PreCheck 
Improperly (Redacted) OIG-15-45)
    Over the last 2 years, our office has made changes to our 
Whistleblower Protection Program. These changes were intended to raise 
our profile within DHS as the entity to which allegations of fraud, 
waste, and abuse are reported, and with effective results. Our goal is 
to make sure that we have a proactive whistleblower program that is as 
good or better than any OIG in the Federal Government. To accomplish 
this, we have:
  <bullet> Appointed a senior executive at the OIG to be the 
        statutorily-mandated DHS Whistleblower Ombudsman. He is 
        spearheading the efforts to ensure that all DHS personnel and 
        contractors, in every component, understand their rights to 
        report fraud, waste, and abuse, and to be protected from 
        retaliation for doing so.
  <bullet> Vastly improved the intake process for allegations of 
        whistleblower retaliation. Now, each claim will be examined by 
        a specially-trained group of investigators within our 
        Whistleblower Protection Office, being assisted and supported 
        by our lawyers in the Office of Counsel.
  <bullet> Obtained, for the first time in our history, official 
        certification from the Office of Special Counsel that our 
        whistleblower protection program met the whistleblower 
        protection requirements of 5 U.S.C.  2302(c).
  <bullet> Begun the process of hiring specially-trained investigators 
        who will be exclusively dedicated to whistleblower retaliation 
        investigations.
    While we are confident that these changes will make us more 
effective, we also understand that it will take constant vigilance and 
dedicated effort to ensure that whistleblowers who have claims of 
retaliation are listened to and that their claims are fairly and 
independently investigated.
    Mr. Chairmen, this concludes my testimony. I welcome any questions 
you or other Members of the committee may have.

    Mr. Perry. Thank you, Mr. Oosterbaan.
    The Chair now recognizes himself for 5 minutes of 
questioning. I am going to say that, you know, much of your 
testimony, Mr. Oosterbaan, is troubling indeed. But I would 
hope it is not indicative of, and we don't think it is 
indicative of the vast majority of TSOs and employees at the 
TSA.
    But it does show the egregiousness of some of the 
infractions that concern all of us here, and we must do 
absolutely everything we can to make sure that they are dealt 
with correctly, judiciously, speedily and at that they are 
minimized.
    With that, Dr. Gowadia, the work force, nearly 60,000 
employees, right? At the TSA? Four hundred fifty airports, and 
we are talking about a work force that allegedly, there is 
alleged committed misconduct of almost half the numbers of 
those employees, nearly 27,000.
    Now, they are allegations, grant you. They are allegations. 
But, you know, a lot of folks, and myself included, you know, 
we kind of believe that where there is smoke, there is fire. 
Right? You know, and then you have the case where 14, 16, and 
18 allegations on one or more employees. In fact, 1,270 
employees have had 5 or more misconduct allegations filed 
against them.
    I just wonder, in a general sense, I don't know what your 
private sector of experience is. You are obviously a person of 
high intellect, well-accomplished. But it seems to me when I 
read the report that there should be one person at the top of 
TSA's human capital, their H.R. department.
    Of course, there is a series of direct reports, whether it 
is somebody that deals with investigations or benefits and so 
on and so forth. That cascades down through 60,000 employees so 
that there is a chain of command. That there is accountability. 
At some point the buck stops somewhere.
    I don't see that. I know you have been on the job for 2 
months. We appreciate you being here. But like I said, you are 
a person of high intellect. So we have high expectations of 
you. Does that seem incongruent with common sense, the rest of 
the real world, or does that seem somehow that it is 
appropriate for TSA to have this structure of a non-structure, 
if you will?
    Ms. Gowadia. Thank you for that question, Mr. Perry. I 
would like to thank you for acknowledging that the large 
numbers are allegations, not substantiated cases of misconduct. 
I think that is an important distinction. I appreciate you 
making it.
    Now, as I mentioned in my opening statement, the 
administrator and I are responsible for our entire work force, 
but every employee is responsible for his or her own conduct 
and performance.
    When it comes to allegations of misconduct or even 
attendance and leave issues, performance issues, it is 
important that we have a set of people who investigate the 
allegations, a set of people who will adjudicate the findings, 
and then a set of people who will implement the recommended 
discipline and penalties.
    Of course, all of that does not preclude us from having a 
central focal point for the implementation of policies for 
making sure that there is consistent application of those 
policies, affording oversight of that role across the 
enterprise, and you will be heartened to know that the 
administrator has actually asked me to take a look at human 
capital management on an enterprise-wide basis.
    One of the first steps we will take in that regard will 
happen very shortly here. We will be bringing together the 
management of the human capital of all our work force under the 
Office of the Human Capital Office.
    So, we are beginning to take steps much in concert with 
what you just said.
    Mr. Perry. I am glad that you are. We will look forward--we 
will try and establish some off-line, post this hearing, 
directly with dialog to determine when we can get together 
again and see what that looks like. Because, I think, we are 
very interested to know what the solution set that you glean 
from that is.
    But I want to move on a little bit and just drill down on 
this multiple infractions problem. Our investigation found that 
some employees had over a dozen allegations of misconduct. For 
the egregious repeat offenders what do you know about them? 
What positions do they hold, or did they hold?
    What types of misconduct are they allegedly involved with? 
What risk do they pose to, you know, regarding insider threats? 
I mean, this is a great concern to the flying public. We want 
to know these things. So what can you tell us about, you know, 
who is looking into these things, and so on and so forth about 
these repeat offenders so to speak?
    Ms. Gowadia. Chairman Perry, when it comes to the repeat 
offenders, I do not have all of the details in the individual 
cases. What I will tell you is with every allegation, the 
totality of your service is considered in meting out the 
discipline or the penalty.
    As I mentioned earlier, we are bringing a lot of this to a 
centralized location. All the data that we now collect, we will 
be able to mine, look for trends, looks for opportunities to 
improve, opportunities to provide remedial training, et cetera.
    Certainly, we will work with you as you requested to share 
with you what we are finding, and what we intend to do to make 
it so that we do manage our entire work force to the high 
standards that you expect of us.
    Mr. Perry. Dr. Gowadia, my time is expired. I think we will 
do at least one more round. I think it would be interesting to 
note that the data that you are talking about, it is my 
understanding that the Department really didn't know much about 
the data even though they collect the data until our team went 
in and started asking questions, they weren't really aware of 
using the data, so to speak, in judicial actions and in 
punishments, and so on and so forth.
    So, that is a great concern as well.
    But with that, I want to recognize other Members as well. 
So, I will recognize Mrs. Watson Coleman for questions. Thank 
you.
    Ms. Watson Coleman. Thank you, Mr. Chairman.
    Thank you, Doctor, for your information that you are 
sharing.
    To you, Mr. Oosterbaan. Mr. Oosterbaan, you work for Mr. 
Roth. To whom does Mr. Roth report?
    Mr. Oosterbaan. The I.G.s are independent. So, the word 
report is a little different than it is in some context.
    Ms. Watson Coleman. Well, who are you accountable to?
    Mr. Oosterbaan. We work for the Department of Homeland 
Security and therefore the Secretary. Although there is, you 
know, a different kind of reporting that is done for the I.G.
    Ms. Watson Coleman. What does that mean?
    Mr. Oosterbaan. That means that our independence is 
critically important, and there is a limited amount of control 
that the Secretary has over the I.G.
    Ms. Watson Coleman. OK. Thank you very much. So, there were 
1,000 complaints that were referred to you with regard to TSA 
of which your office chose to take on 40 of those complaints, 
allegations?
    Mr. Oosterbaan. That is correct.
    Ms. Watson Coleman. Of those 40 allegations, how many 
resulted in action?
    Mr. Oosterbaan. I don't have that specific information, I 
regret, but we generally were not involved in that. So, we 
generally do not track that information.
    Ms. Watson Coleman. All righty. So there were 1,000. So, 
there were 960 other allegations of misconduct that are 
referred someplace else. That includes things like--does that 
include tardiness, taking leave without permission?
    Mr. Oosterbaan. Correct.
    Ms. Watson Coleman. Doctor, I am sorry, Dr. Gowadia, right?
    Ms. Gowadia. Yes, ma'am.
    Ms. Watson Coleman. So those issues are addressed to you 
all to evaluate?
    Ms. Gowadia. Yes, ma'am.
    Ms. Watson Coleman. All righty. I understand that you are 
significantly understaffed, and that there have been instances 
where people have had to work back-to-back shifts.
    Ms. Gowadia. Yes, ma'am.
    Ms. Watson Coleman. Do you find that there is any 
correlation between that phenomenon, that understaffing, or 
inadequate, and these tardiness or these AWOL, or these leave 
without permission?
    Ms. Gowadia. First, ma'am, I would like very much to thank 
Congress for the reprogramming actions that have allowed us to 
hire new officers, convert more from part-time to full-time 
status, and give us a significant bank of overtime hours so 
that we are able to mitigate some of the impact on our front-
line officers.
    While we have not studied the data sufficiently to give you 
a definite one-for-one correlation, I will tell you that the 
informed opinion of our leadership is, that the fact that we 
have shift work, some shifts start at 3:30 in the morning. Some 
officers have to stay late because an airport stays well beyond 
its usual operating time.
    All of these conditions do impact some of the attendance 
and leave--the large number of attendance and leave----
    Ms. Watson Coleman. So, I looked over----
    Ms. Gowadia [continuing]. Numbers you see.
    Ms. Watson Coleman. Thank you. I looked over your, sort-of, 
guidelines for disciplinary action which are quite exhaustive 
actually.
    Ms. Gowadia. Yes, ma'am.
    Ms. Watson Coleman. I recognize that there are certain 
categories, and there are certain circumstances under which you 
can do A to a person who is 3 minutes late chronically, versus 
B to a person. I am wondering if this new, sort-of, first-line 
supervisory training that you all are engaging in is going to 
be helpful in helping first-line supervisors to kind of make 
that distinction better.
    Do you think that would result in less, sort-of, I think 
loosens allegation of people who are 3 minutes late under those 
circumstances that we think are very stressful anyway?
    Ms. Gowadia. I certainly think that that training will help 
them. I also know that penalty table that you mentioned is a 
guideline.
    Ms. Watson Coleman. Yes, it is.
    Ms. Gowadia. It allows us to----
    Ms. Watson Coleman. Let me just ask one question----
    Ms. Gowadia. Yes.
    Mrs. Watson Coleman [continuing]. Because what do you think 
we need to do to improve the morale?
    Ms. Gowadia. So, I think morale improves in many different 
ways. First, you provide a rallying cry for a work force. I 
think our Administrator's Intent gives it to us. We are 
committed to our security mission. We are committed to 
ourselves. We invest in our work force. In everything we do we 
strive for excellence.
    I think that forms the core basis of how we train, how we 
prepare to do our work, how we arrive at work, what we do every 
day. In building that esprit de corps, in affording 
opportunities for training, for career path progression, 
leadership training from the most junior employees all the way 
up to making that sure that even our senior employees receive 
the adequate leadership training.
    I think you build and support a work force by making it an 
environment in which they can grow. I think we are well on our 
way with that, with the establishment of our TSA Academy at 
Glynco.
    Ms. Watson Coleman. Thank you.
    My time is up. I think that as we have an opportunity to 
revisit some of this discussion with you and see how you are 
moving in that direction, and how successful you are becoming 
in creating this esprit de corps, which will improve the morale 
issue and the efficiency issue and the performance issue.
    Some would be very much interested in exploring it later.
    Thank you. With that, I yield back.
    Mr. Perry. Chair thanks the gentlelady.
    The Chair now recognizes the gentleman from New York, Mr. 
Katko.
    Mr. Katko. Just to follow up on the last question, Mrs. 
Watson Coleman asked, it is fair to say also that how the 
front-line workers perceive upper management and how they are 
treated compared to how they are treated in the front lines is 
important as well. Is it not?
    Ms. Gowadia. Undoubtedly so.
    Mr. Katko. OK. So, when someone is getting $60- or $70,000 
in bonuses for poor performance, that is not a good signal to 
send.
    Ms. Gowadia. It isn't, which is why it is a practice that 
has been discontinued at TSA, sir.
    Mr. Katko. Yes, I just want to get into that a little bit. 
I am sorry to say sometimes, but the upper management at TSA, 
there have been some problems. When the front-line people see 
those problems I think that impacts negatively the morale issue 
as opposed to numerous other things as well?
    What have you done since you have come on the job there to 
address the issue of upper management proper performances, and 
when they mess up making sure that they are held accountable as 
well.
    I mean, the bonuses are one. But can you give some other 
examples?
    Ms. Gowadia. Yes. So, let me dig into the bonuses issue and 
the control that the Inspector General mentioned that we should 
take into account.
    So, first a subordinate may no longer nominate a supervisor 
for an award. Only a supervisor can nominate somebody for a 
special act award.
    Mr. Katko. Can I just digress 1 second?
    Ms. Gowadia. Please.
    Mr. Katko. Where the heck did that idea ever come from to 
begin with?
    Ms. Gowadia. Sir, that was well before my time, and I was 
in the nuclear world at that time.
    Mr. Katko. OK. Figuring nuclear equations would be easier 
to figure out than having to figure out why that program was 
implemented in the first place. But OK, go ahead, please.
    Ms. Gowadia. So, that was No. 1. No. 2, we have capped the 
annual that a senior executive service employee can get at the 
TSA to $10,000. So, in any fiscal year, no more than $10,000.
    Third, the Office of Human Capital has to review the 
package. Finally, as deputy administrator, I get to approve 
those recommended bonuses.
    So, bonuses will no longer happen the way it used to at 
TSA.
    Mr. Katko. Now, just drilling down a little farther, at 
local airports the discipline for the front-line workers seems 
to be more handled at a local level. Of course, TSA handles the 
management, the discipline management at the headquarter level.
    How is TSA working to streamline the processes and 
procedures to provide some continuity or consistency across the 
agency, for all levels of employees?
    Ms. Gowadia. So as I mentioned earlier, sir, we have taken 
our first step in that regard. We are bringing the management 
and the policies and the oversight under one central person, 
our Office of Human Capital.
    Of course, it is important that we allow our Federal 
security directors and our leaders in the field to be 
sufficiently empowered to address performance issues. To 
address as much as they can at the local level.
    An empowered work force, a work force that works diligently 
through leadership and management actually is a work force that 
has higher morale. Which is why we are all going through 
training at our TSA Academy, why we are affording our young 
leaders, our aspiring leaders, new training. Even our most 
senior leaders are going through the same training.
    We are beginning to baseline and build the same values and 
same integrity across the board, sir.
    Mr. Katko. Does that training, first of all I applaud that 
action. Does that training also include refreshers on how to 
report misconduct?
    Ms. Gowadia. Indeed.
    Mr. Katko. OK.
    Ms. Gowadia. We do recurring training on No Fear Act, et 
cetera, yes, sir.
    Mr. Katko. Now, you are getting more analytical with 
respect to how you look at employee misconduct because you are 
analyzing data more frequently. Is that correct?
    Ms. Gowadia. Yes. We will begin to do so with greater rigor 
with each passing day.
    Mr. Katko. OK. Now, as far as that goes, we really haven't 
seen evidence that the employee misconduct cases are really 
being assessed, excuse me, for trend analysis. I mean, trends 
and misconduct and what is causing those trends to go in 
certain areas.
    What are you doing if anything to implement some sort of 
trend analysis to try and nip that conduct or pervasive conduct 
in certain areas?
    Ms. Gowadia. So, my background as an engineer, I value 
data. I do appreciate the data when carefully analyzed can help 
you shape the course of an organization. I hope to bring some 
of that personal touch to the analysis of the State and moving 
forward.
    Mr. Katko. Is the FBI Rap Back system currently in 
operation?
    Ms. Gowadia. Sir, I do not have details on that at this 
time. But I do believe, yes.
    Mr. Katko. OK. One thing I would like to know, and perhaps 
you could follow up with a written answer, is the FBI Rap Back 
system in effect for all of TSA employees, not just officers, 
all employees, No. 1?
    No. 2, how are they using that data to ensure that people 
that may be breaking bad or committing crimes outside of the 
work force that indicate security risk, how are they being 
dealt with?
    Ms. Gowadia. So, we do conduct on an annual basis a 
criminal history background check on all our employees. We also 
conduct random and reasonable suspicion-based drug testing. We 
certainly have a lot of recurrent training for our staff.
    The allegations, the data you see before you are direct 
results of colleagues reporting things that they see out of 
place. So, I think we have some of that in place.
    Mr. Katko. The Rap Back service would----
    Ms. Gowadia. Indeed.
    Mr. Katko [continuing]. Certainly enhance that.
    Ms. Gowadia. Indeed.
    Mr. Katko. We need to get that on-line. I would like to 
know when that--if it is on-line, if it is operational, No. 1. 
No. 2, if it is not, when is it going to be?
    Ms. Gowadia. Yes.
    Mr. Katko. Then, No. 3, how are you using that information?
    Ms. Gowadia. I will take that as a get-back, sir.
    Mr. Katko. Thank you very much.
    Mr. Chairman.
    Mr. Perry. The Chair thanks the gentleman from New York.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    First, let me say, I will be glad to have the opportunity 
to look at this report after the fact. We are just receiving it 
and that is something that is a bit of a concern. But, I will 
have a great opportunity to look at it later.
    You know, we are here discussing allegations in terms of 
TSOs and their ability to do a job properly. Let me just say 
that the front-line workers in these airports have a job that 
is of the utmost importance to the flying public to make sure 
that no harm comes to them during their travel.
    They work diligently, and they work hard. I think we need 
to understand that and make sure that we let them know that we 
support them. Naturally there are people that aren't doing the 
job properly. Allegations of misconduct. But there is 
misconduct in everything.
    There is misconduct with attorneys. There is misconduct 
with police. There is misconduct with Members of Congress. So, 
we need to just focus on the true issues and not just blanketly 
penalize the entire work force.
    Most of these allegations, from what I understand, deal 
with tardiness and absenteeism. But we have a work force here 
that is, because of the issue around wait times, are doing 
double shifts, and just really being pushed to the limit.
    So, if you do two shifts and you go home and you try to 
rest, you just might be 3 minutes late getting back to the job. 
So, we just want to make sure that, you know, the misconduct 
that we are talking about rises to a serious level.
    Also, you know, there is an issue around Chicago O'Hare 
Airport and contract workers, two unarmed security guards at 
O'Hare were fired under the pretense that they leaked sensitive 
security information to the press.
    Prior to that firing, they made statements to the press 
complaining about their pay, poor working conditions, and 
retaliation of union organizing activities. They also said that 
they had no training to deal with emergencies other than to 
radio a supervisor in case an event.
    What do you have in place to make sure contractors are 
getting the type of training that they need in these airports?
    Ms. Gowadia. Mr. Payne, when it comes to the contractor 
that you are referring to, Chicago is a Federalized airport. So 
the transportation security officers there are Federal 
employees. So, I am not familiar with the report that you 
cited. But if I had to take a stab at it, I would say that the 
contractors you are probably referring to are the ones that 
work for the airport in other duties.
    We certainly have an insider threat program at TSA where we 
work with our airport and airline partners to make it so that 
we are putting into effect as many of the ASAC recommendations 
as possible, reducing the number of access points to the 
sterile area, and increasing the expectation for every airport 
worker that they will be screened or they will be questioned if 
they came through a gate that required a badge screening.
    We are beginning to see some significant improvement in the 
insider threat piece and we are improving our insider threat 
training across the system.
    But, if I may, Mr. Payne, may I just address something you 
mentioned earlier in your statement? I would like to go on 
record as saying that 99.7 percent of TSA officers have passed 
integrity tests.
    So, I would say that 99.7 percent of our tests have seen 
positive results. Over 5,000 tests at over 200 airports since 
2012, and to have that rate speaks to the integrity and values-
driven work force that I am very proud to be a part of.
    Mr. Payne. OK.
    Well, my time is up, and so I will yield back.
    But just before I say that, I do reach out to TSOs when I 
see them. As a matter of fact, my way back to Washington, 
picking up my clothes at the cleaners, it was TSO that came in, 
and I definitely thanked them for their service.
    Ms. Gowadia. Thank you so much for doing that.
    Mr. Payne. I yield back.
    Mr. Perry. The Chair thanks the gentleman from New Jersey.
    I would like to state for the record that all parties on 
the committee, and, as well, you folks received the report at 
the same time, which is yesterday. So, nobody was given any 
deference at all. We all got it the same time. We are all going 
through it, including you as well.
    So, with that, the Chair will now recognize the gentleman 
from Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank the witnesses for being here.
    Dr. Gowadia, I want to follow up on Mr. Katko's question 
about the bonus compensation. You mentioned these were all 
senior executive service officials who were receiving them and 
it has now been capped at $10,000.
    Is there a total cap on annual compensation for SES 
officials?
    Ms. Gowadia. So, our program is in concert with the OPM 
standards. I do not have the exact number for you though.
    Mr. Rogers. But is there a total cap?
    Ms. Gowadia. I do believe----
    Mr. Rogers. On top of their annual base compensation, they 
can possibly be paid?
    Ms. Gowadia. A performance bonus? Yes, they will be paid a 
performance--they are paid a performance bonus commiserate with 
their performance in that year, but I do not know the exact 
cap, sir. I can get back.
    Mr. Rogers. My question really goes to this, if somebody is 
being paid $175,000, is there a cap how much over and above 
that they could possibly be given, or is there unlimited amount 
that----
    Ms. Gowadia. We have controls in the department. So, at a 
certain level you have to pay an SES 5 percent as a bonus 
level. If you decide it is 0 or 5, that is the starting level. 
Beyond a certain dollar value, and I can't remember that dollar 
value, we have to go through the Department. The Deputy 
Secretary has to approve it.
    We have a performance review board that reviews everything 
across the Department. But as to the exact value or do we have 
an absolute cap, I would have to get back to you on that.
    Mr. Rogers. Please do. Please check and see if there is any 
cap or not.
    Ms. Gowadia. I will take that as a get-back, sir.
    Mr. Rogers. Anyway, I wanted to ask you, 5 entities within 
the TSA have responsibility for some part of the process to 
address misconduct. But no one senior official has been clearly 
designated to oversee it.
    Despite this though, TSA has 20 direct reports to the 
administrator. I find that just phenomenal that Neffenger has 
20 direct reports, and nearly 3,000 headquarter employees. That 
is an awfully big bureaucratic hierarchy.
    Do you think that is the best structure to be used to deal 
with some of these problems that have been outlined in this 
report?
    Ms. Gowadia. Sir, as I mentioned before, when it comes to 
misconduct allegations, there are different functions that have 
to work through the system. You need somebody to investigate. 
You need somebody to adjudicate the findings of the 
investigation. You certainly need leadership that can implement 
the disciplinary process.
    But all of them do come through so that policies, the 
Office of Human Capital and, of course, ultimately they are 
responsible to the administrator and myself. So, we do have a 
structure that is actually rather in keeping with the rest of 
Government when it comes to the assignment of functions.
    Centralization of the work force management is under way, 
as I mentioned. We are in fairly short order here, we will 
begin to use our systems administrator for human capital as the 
central body that will oversee the policies and the 
implementation of the policies across the enterprise.
    Mr. Rogers. So, I guess I am hearing you say that you don't 
see a problem the administrator having 20 direct reports.
    Ms. Gowadia. So, when the administrator came in he did look 
at his structure. He has already consolidated many of those 
direct reports under a chief operations officer.
    Mr. Rogers. Good.
    Ms. Gowadia. So, as we look to the future of TSA, we will 
certainly absorb the findings of your report. Any best 
practices available as we keep evolving TSA to be an effective 
and efficient organization in the days ahead.
    Mr. Rogers. Well, I would urge to look into the private 
sector for some of these organizational charts as opposed to 
the Government. The Government has not been the best role model 
for that.
    According to Administrator Neffenger, TSA vets employees on 
a recurrent basis. You made reference to that earlier today. 
Which includes conducting criminal history checks to identify 
activity that might not be self-reported or disclosed as 
required.
    However, our investigation found that other agencies 
identified criminal activity that TSA missed, which were 
referred to the OIG for investigation.
    Please reconcile these two facts. How effective can the 
current vetting process be if other agencies are identifying 
information that TSA is not uncovering?
    Ms. Gowadia. So, I do believe it depends on what it is that 
was uncovered. So, if it is recreational drug use, that would 
probably not show up in a criminal history check for example. 
So, in those instances, the annual criminal history check would 
not catch it. But, if you were polygraphed at a different 
agency, you might self-report on it.
    Mr. Rogers. Great. Thank you.
    I yield back, Mr. Chairman.
    Mr. Perry. The Chair thanks the gentleman from Alabama.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Thank you both for being here today. This is extremely 
important in my view. Since I have been here and looking at 
TSA. TSA is definitely an important aspect of our National 
security. But I also believe that it is viewed by the American 
people as potentially one of the most mismanaged and 
ineffective from the perspective of--if we hear about now long 
wait lines.
    But also, the interaction between TSA employees and the 
general public and some other issues, which I will get into. 
Understand, you haven't been on the job very long, so this 
isn't geared toward you. You have a lot of work ahead of you if 
we can turn things around.
    My first question, Mr. Oosterbaan, is, and I will pose this 
to both of you, of the numerous allegations of misconduct that 
are made, generally who makes those allegations? Coworkers, 
supervisors, the public? Who is it that makes most of the 
allegations?
    Mr. Oosterbaan. I don't have specific information to 
provide to you an exact number. It is certainly all of the 
above in terms of the allegations we get. It, of course, 
depends on the nature of the allegation, you know, the 
narcotics through an airport, came through a confidential 
informant. So, someone that was not part of TSA at the time. It 
really depends.
    Mr. Loudermilk. OK.
    Would you like to address that?
    Ms. Gowadia. I would concur with everything the I.G. just 
said.
    Mr. Loudermilk. OK. One of the things I have known from 
working in the military and as well as in private business, one 
indication of poor morale is exactly what we are seeing here, a 
lot of allegations. Which, many may end up being false. I think 
that there is this morale problem we have.
    Another question I have is regarding the number of 
employees, there is, I think, 781 have been placed under 
administrative leave between 2013 and 2015. Are generally those 
employees paid while they are in administrative leave?
    Ms. Gowadia. I do believe they are, sir, but I can get back 
to on the specifics.
    Mr. Loudermilk. OK. I would appreciate that because a 
previous investigation we did through this committee showed 
that during that similar time frame the Department of Homeland 
Security spent over $30 million paying employees to stay at 
home and not at work because they were on administrative leave, 
and some of those for as much as 2 years.
    Quite often our friends on the other side of the aisle say 
that our biggest problem in TSA is a lack of funding. I think 
there is at least $30 million that we can use there if we can 
adjudicate these on a much quicker basis.
    Let me address one other thing that is very important. I am 
actually going to be meeting with an ambassador for a foreign 
country over some issues that we have been having. Last year, a 
constituent of ours was put in prison in India because when 
they arrived in India to work for Habitat for Humanity it was 
found that he had four live bullets in a backpack that he 
carried onto the aircraft.
    He didn't know they were in there. He borrowed the backpack 
from his son. Went through two TSA checkpoints in the United 
States. It was not found. When he arrived in India they were 
found.
    Right now I have a constituent in Mexico who was arrested. 
He made it through a TSA checkpoint here in the United States 
for the same thing, live bullets in a backpack that he didn't 
realize was there. But it was caught as he was trying to return 
back to the United States in Mexico. He was arrested and 
imprisoned there. Self-employed, he has no income at this 
point.
    A friend of mine came to DCA without realizing he had a 
backpack carryon, he had 12, 12-gauge shotgun shells in his 
backpack that he didn't realize was there until he got to the 
hotel here in Washington, DC. Made it through a TSA checkpoint.
    Another one recently made it to the gate at DCA with a pair 
of shears in their pocket that they forgot that was in there 
until they were about to board the plane and reached in their 
pocket and found the pair of shears that made it through a TSA 
checkpoint.
    I personally experienced getting several years ago to the 
District of Columbia, had a large flathead screwdriver in my 
briefcase that I did not know was there. I made it through a 
TSA checkpoint.
    We are talking about bonuses for performance? These issues, 
we are lucky that these were people that did not have ill 
intention. How is this happening? Is it a morale issue? Is it 
because we have people on drugs that are working? I noticed 
that a lot of the incidents are because we are not following 
security procedures.
    Is it the technology is not up to date and we are forcing 
people to do things that they don't have the right tools? So, 
if you could opine on those, please.
    Ms. Gowadia. So, all of that begins with training. You have 
to prepare your work force to do their mission. Which is why we 
have started our TSA Academy, and why we have sent all our new 
officers through there.
    They receive training on the specific technologies they 
will use when they hit the airports. We will continue to give 
recurrent training to our officers.
    Second, the technology can and will improve in the future. 
I will tell that our rededication to our security mission has 
resulted in an appreciable uptick of the prohibited items we 
find on a daily basis at the airports.
    In 2012, for example, we found about 2,200 firearms. This 
year, we are on track to finding about 3,000. We continue to 
work with our staff to keep them vigilant, give them better 
training aids.
    You may have heard of the new innovation lanes we put in in 
Atlanta, for example. Not only does it speed up the flow of 
people divesting themselves and moving through the checkpoint, 
but it allows us to give an officer real-time feedback on tests 
that are run in the system.
    This helps officers learn and keep improving their skills. 
Working in a checkpoint is a demanding environment. But we do 
not have the luxury to fail. So, we are continuing to invest in 
our people and commit to their excellent service and support of 
the Nation.
    Mr. Loudermilk. Thank you, Doctor.
    I see I am out of time, Mr. Chairman. I yield back, but I 
am gravely concerned over the bonus issue when the performances 
bonuses do not seem to be commiserate with the performance that 
we are seeing. Thank you.
    Mr. Perry. The Chair thanks the gentleman from Georgia.
    The Chair now recognizes gentleman from Florida, Mr. 
Clawson.
    Correction, Mr. Ratcliffe.
    Mr. Clawson. You owe me now.
    Mr. Ratcliffe. Thank you, Chairman. Thank you, Chairman 
Perry and Chairman Katko, for your work over the last 6 months 
to put together this report and its findings.
    I want to thank both witnesses for being here. Mr. 
Oosterbaan, for the investigative work that your office did 
here.
    Dr. Gowadia, good to see you again.
    For the benefit of others in the room, I have had the 
chance to work with Dr. Gowadia in her prior role as the head 
of the Domestic Nuclear Detection Office, and in my role as the 
Chairman of the Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies here on the Committee on 
Homeland Security.
    I will say that DNDO under your leadership repeatedly 
received excellent marks and reviews with respect to its 
morale, with respect to its efficiency, with respect to its 
effectiveness. So, I think that really bodes well. I was 
pleased to hear about your selection as the deputy 
administrator at TSA.
    So, having said that, these are challenging times. I 
related the same to Administrator Neffenger when he was here a 
few months ago. Because, we know that aviation traffic is up, 
passenger loads are up, but at the same time, we know that 
terrorists continue to make civil aviation, both airlines and 
airports, the target of their twisted ideology.
    That being the case, it makes some of what we have in this 
report and in findings all the more troubling. I think that it 
looks like, I think, TSA employs about 60,000 people. According 
to this report, a total of 17,611 allegations of misconduct.
    So, if I am doing my math right, that means about 29 
percent of the TSA's work force has had misconduct allegations 
within the past year. Given that the vast majority of those 
relate to the TSOs, the Transportation Security Officers, folks 
on the front line, that is even more troubling.
    One thing that I have almost observed universally with 
respect to all successful organizations is they can point to 
one of their greatest assets being their people.
    So, Dr. Gowadia, I want to start with you and say in trying 
to get TSA to that place where it can champion its people as 
its, as one of its greatest assets, I know you have only been 
there for a short time but I would like your assessment.
    So, is this a problem? Is it a need for better protocol? Is 
it an issue of retraining the TSA work force? You talked about 
the TSA Academy in response to Congressman Loudermilk. Is this 
an issue of technology, better technology? Is it a combination 
of all those?
    So, I would like your candid and frank assessments given 
where you are at this point.
    Ms. Gowadia. Sir, I would like to reiterate something I 
said to Mr. Payne earlier this morning. Since, 2012 we have 
conducted almost 5,000 inspections at the airport, integrity 
testing tests at airports, over 200 airports. And 99.7 percent 
pass rate for our front-line officers.
    That is an incredibly diligent and proficient work force, a 
very professional work force. We do have some issues with 
misconduct, and even one case is one too many. It starts with 
training. It starts with providing them the right basics, 
giving them all the tools that they can possibly have to 
succeed, career path progression.
    Making sure that the technology that they have enables 
their ability to do their job, keep up with their skills, and 
certainly I want to thank Congress for the additional resources 
that you have afforded us by virtue of our reprogramming 
because it allows us to bring on board the right-sized staff, 
convert people from part-time to full-time, which also 
increases performance and retention, and overtime hours, 
precluding the shiftwork, tired officers, et cetera.
    So, thanks to you guys we will have more canines. We will 
have better technology. We will certainly have more people on 
the front lines. All of that, all of that accompanied with the 
training, the technologies, it has to be a holistic approach.
    They cannot be just a single bullet that will fix 
everything.
    Mr. Ratcliffe. Thank you. My time is about to expire. But 
as I already said I have great confidence in you and your 
abilities. I am very pleased so far with how administrator 
Neffenger has approached the job in short time there.
    But you and the administrator only have 6 months until the 
new administration comes in. So, what are your plans with 
respect to making sure the initiatives and the approaches that 
you want to use to fix some of these issues and problems with 
respect to employee misconduct will carry forward into the next 
administration?
    Ms. Gowadia. Mr. Ratcliffe, thank you for your vote of 
confidence. In taking this job, I went back to the Federal 
service. So, the next administration will continue to see me in 
service. I hope to stay there for a good bit of my career.
    But the administrator has given us a strong foundation, 
virtue of the academy, virtue of his intent, constant training, 
consistent training across the board. He has set us on a good 
path. Whether he stays on in the next administration or not, I 
think he has set us off in fine fashion, sir.
    Mr. Ratcliffe. My time has expired. Again, I thank you both 
for being here.
    I will yield back.
    Mr. Perry. The Chair thanks the gentleman from Texas.
    The Chair now recognizes the gentleman from Florida, Mr. 
Clawson.
    Mr. Clawson. Thank you for coming. I am going to go a 
little off topic, OK? I appreciate what you all do for our 
Nation. My district is Fort Meyers, Naples. It is a great 
district, right on the water. We live and die on tourism. We 
live and die on tourism.
    We don't mind being team players. Right now, the TSA checks 
dogs and people out of our airports, to go to Chicago or 
wherever you have got long lines and it is our down season. We 
hear ya. We don't, you know, I ain't been kicking up a lot of 
dust on this.
    But when October and November gets here, we want our people 
back, you all. You hear me now. We want our dogs back.
    Ms. Gowadia. I hear you.
    Mr. Clawson. We hear you all, you know, everybody is on the 
record here. You all gotta give us our stuff back. We, you 
know, we are always small child, you know, we are the youngest 
child compared to some of the other big airports and regions 
around the country.
    But we already have an ecological disaster that we don't do 
a lot about. If we get long lines on top of that in southwest 
Florida, it is going to hurt my people. It is going to hurt my 
economy. So, please, give us our people back.
    We are being team players. We are not squawking. But when 
our season comes, you all figure out a way in Chicago and those 
other airports to handle you all's business so we can get our 
dogs and our people back. Please, I am pleading with you.
    Ms. Gowadia. I hear you, sir. I think----
    Mr. Clawson. Home team first for me, all the way. Home team 
first. We have got a lot of working class folk that depends on 
that industry.
    The second thing I wanted to bring up with you all this is 
not, you know, bad behavior or anything like that. It is my 
impression through my investigation and, you know, reading and 
studying this that our dog, you know, our canine thing is kind 
of helter skelter.
    You know, if you looked in the past, we shut down some of 
our breeding, and, you know, other internal dog development and 
it kind of feels like we are a little under-staffed on canines, 
particularly canines that can track that vapor scent in a 
crowd.
    Particularly if you look outside of TSA and the airports, 
and look at DHS at a broader level, it just feels to me and 
seems to me that we could spending a lot more time and a lot 
more money on dogs. We could understand the genetic, you know, 
we are buying dogs from Mexico and Europe for God's sakes. You 
know that. We get a few out of Auburn. We send them to Texas. 
We train them with their handler. Then we put them out in the 
field.
    You know, it kind of feels like to me I wish we had five 
times more good dogs. That that would, some of these problems 
that have already been talked about today wouldn't be such a 
big issues if we had that line because those dogs are pretty 
damn, you know, they are very good.
    Machines and humans are not as good in my view on some 
things. So, it feels like we should be putting a lot more into 
the dog program. Are you agreeing with me on that, Doctor?
    Ms. Gowadia. Yes, sir. Which is why we are aiming to get up 
to 500 passenger screening canine teams out for our airports. 
To this end, again, many thanks to Congress for helping us in 
the reprogramming. That is going to be one of the focus areas 
for the money that is----
    Mr. Clawson. Are we going to keep buying those dogs from 
Belgium and from other countries? Are we going to insource more 
of it so we understand? Look, if I buy a car, a used car and 
somebody else has had that motor for three owners, you know 
what I mean, I don't know if he has re-boarded or not. You 
know?
    So, I would think for, you know, the genetics of dogs is 
very important in how effective they are, correct?
    Ms. Gowadia. Yes, absolutely.
    Mr. Clawson. But we are outsourcing the genetics and the 
upbringing of those dogs right now. Am I right about that?
    Ms. Gowadia. Mr. Clawson, I think it would be really 
beneficial if we were to come sit down with you and walk you 
through the full extent of our canine program. How we buy the 
dogs, how we train the dogs. What it takes to train the dogs 
and how we put them out into the field, the partnerships we 
have domestically and internationally.
    I think it would help you to see all of that. At your 
convenience I would love to bring the team up and share that 
information with you.
    Mr. Clawson. I have been talking to some of your folks 
because I sit on Homeland Security and I am worried about my 
airport. I think they do a very good job. I just think we would 
like to put more into it. If you all want to start training 
dogs and set up a facility in southwest Florida, we would love 
to have it.
    I am very supportive. Thanks for coming in today. 
Appreciate what you all do for our country.
    Ms. Gowadia. Thank you, Mr. Clawson.
    Mr. Perry. The Chair thanks the gentleman from Florida. I 
am going to go for a second round.
    As long as I am sitting here it is going to be you and me. 
So, with your indulgence, Doctor, TSA uses a discipline process 
where repeated misconduct should result in more stringent 
penalties.
    So, as you incur more infractions, the penalty curve goes 
up, right? Half of TSA's work force allegedly committed 
misconduct from fiscal year 2013 to 2015. I say allegedly 
again. Almost half of that number did so repeatedly.
    So, half of the 27,000 allegations, and of those multiple 
infractions. That suggests that this model of increasing 
penalty is a failure because it hasn't deterred it. But it 
probably also suggests that maybe that is not being 
implemented, the increasing penalty with increasing 
infractions.
    How, can you speak to that? I know you have been here 2 
months. But that is a concern for us.
    Ms. Gowadia. Chairman Perry, I think it is important that 
we look at the individual cases to a certain extent. Because if 
you just look at the raw data, the vast majority of those 
allegations, again, fall within attendance and leave, things 
that can be addressed using administrative processes.
    It is not so much an issue of misconduct as much as it is 
an issue of performance. So, if somebody is tardy once, 
somebody is tardy twice, yes, it goes from counseling, to 
letter of reprimand----
    Mr. Perry. Right.
    Ms. Gowadia [continuing]. Et cetera, et cetera. So, when it 
comes to some of the larger numbers, I think perhaps it would 
benefit us to tear the individual cases apart.
    Mr. Perry. Then maybe you should have two separate 
categories so that we can further determine where the bigger 
problem is, and then resources can be expended there because I 
tend to agree with you. If it is something criminal that is 
obviously different than showing up a few minutes late for 
work.
    I think we all get that, but I would also say, and I think 
you would agree, that the integrity of the system depends on 
everybody doing the best they can at all times. While none of 
us are perfect, you know, if you, as a boss used to tell me, if 
you can be 3 minutes late, you can be 3 minutes early, right?
    You are holding the other person up, and you are holding 
the line up. These things cascade. So, we have to have that 
level of expectation of excellence. We are not often, or often 
enough, going to meet that. But we have to have that 
expectation that we are going to strive for that at every 
single time.
    If our metrics don't bear that out correctly then we need 
to look at something else that adequately reflects the 
circumstance so we can address the problem. Would you agree 
or----
    Ms. Gowadia. Absolutely, Chairman Perry. Our conduct 
permeates everything we do. So, to the extent that we can 
separate the more egregious and devote enough time to training 
and retraining, and continue to raise the professionalism of 
our entire work force, we fully intend to do so.
    As I mentioned, our three principals are mission focus, we 
will invest in our people, and we, as a team, are committed to 
excellence.
    Mr. Perry. Let me turn to Mr. Oosterbaan on that. Do you 
have some input regarding that last kind of discussion that the 
good doctor and I were having that you would like to impart, or 
do you have any thoughts?
    Mr. Oosterbaan. Thank you, Chairman Perry. One thing I 
would note in reviewing the report of the subcommittee is, and 
it has been mentioned earlier, is the lack of consistency with 
regard to discipline. Perhaps the lack of transparency, and it 
sounds like TSA is addressing this.
    I think that is critically important. We have talked about 
morale. That has a direct impact on morale. This thought, this 
notion that discipline is being applied inconsistently. Legal 
precedent just kind of relies on that consistent application to 
assess whether this discipline was correct.
    So, I think that is an important point of your report.
    Mr. Perry. Right. If we have missed the mark, and if the 
administration has missed the mark, I would also say that 
attendance can turn into misconduct. Attendance and leave, that 
category includes AWOL, and, you know, absent without leave. As 
a military guy, you know, AWOL is a very, very serious issue.
    When you are expected on the line, and certainly in the 
military and certainly in a combat situation, these are issues 
of life and death. I don't want to diminish the military in 
that regard or increase the visibility or the import of this at 
TSA.
    But these employees are expected to be on the line, right? 
It does increase the workload for the next person, right? Or 
the time spent. That leads to potential failures, and so this 
can be an issue of life and death, right?
    Ms. Gowadia. Undoubtedly, sir. Which is why I said that 
conduct permeates everything we do. How we prepare for the 
work, how we do when we show up to work, and certainly how we 
have recovered and retrained along the way.
    You will not get any fight from me on the notion that our 
work force needs to be disciplined, needs to commit to 
excellence, and maintain a good esprit de corps so that you are 
not having to lean on the rest of your----
    Mr. Perry. Those adjudications fairly meted out are seen by 
everybody. Let me ask you, you mentioned integrity testing and 
evaluation or something. I don't know if I have the terminology 
correct. But I want to make sure I understand that. Is that 
integrity from the standpoint of personal integrity?
    You said it is somewhere in the 97 percent? Is that?
    Ms. Gowadia [continuing]. Ninety-nine percent.
    Mr. Perry [continuing]. Ninety-nine percent. I got to tell 
you, from my standpoint when you said that, so how do I 
juxtapose, how do I view that in light of 27,000 allegations of 
misconduct among the, nearly half, right? So, 99 percent 
integrity rating. I am wondering, do you see maybe there is an 
issue with that system.
    Is it adequate? Is it appropriate? Because it is saying 
everybody has got this great integrity, but half of the work 
force is alleged to have been involved in misconduct. So, where 
is the disconnect there?
    Ms. Gowadia. So, your personal integrity. So, let me give 
you a sample test that might happen.
    Mr. Perry. Sure.
    Ms. Gowadia. An inspector might walk through a checkpoint 
and accidentally drop some money. In 99.7 percent of those 
tests since 2012----
    Mr. Perry. Somebody says, hey, I found some money. Did 
anybody lose it?
    Ms. Gowadia. Brings it right back to--if they see who it 
was dropped, right?
    Mr. Perry. Right.
    Ms. Gowadia. So, those are the kinds of tests where they 
are looking at an officer's personal integrity. Again, the 
allegations that you see before you range all the way from 
criminal misconduct. About 1 percent of those allegations 
relate to integrity and ethics, and about 50 percent of them 
relate to attendance and leave.
    I am not downplaying any of that. I am not saying that that 
is any excuse for not having a strong, effective, professional 
work force, which we do have at TSA. I came home to be a part 
of a proud work force, sir.
    Mr. Perry. All right.
    I am going to turn to Mr. Katko at this time. But I 
probably have a third round for me with his indulgence as well.
    The gentleman from New York is recognized.
    Mr. Katko. Thank you very much. Mr. Oosterbaan, you 
pronounce it? Is that correct?
    Mr. Oosterbaan. Oosterbaan, sir.
    Mr. Katko. Oosterbaan, OK. All right. Well, a quick 
question for you. In doing your report, I know the report is 
not completely finished yet. I presume you looked at the access 
control issue as far as employee misconduct. By access control, 
I mean, the employee is getting access to secure areas of the 
airports.
    That is a major concern of mine, particularly in light of 
what happened in Istanbul and Brussels. But, more importantly, 
what happened in Mogadishu and Sharm El Sheikh where airports 
were bombed, and perhaps the Egypt Air one as well.
    The latter two were definitely inside jobs at airports it 
looks like, where bombs were smuggled in through corrupt 
employees. So, we are very concerned about the access control 
issue and the sight of badge issue.
    We passed legislation to that extent which is sitting in 
the Senate. Hopefully, going to get some attention at some 
point.
    With that as a background, do you believe TSA is currently 
capable of effective oversight of its own employees' access to 
secure and sterile areas of airports?
    Mr. Oosterbaan. In our work we have addressed that to a 
certain extent. It has given us some concern. I think we have 
expressed that concern previously. Your concerns with regard to 
the screening that isn't currently being done at the vast 
majority of airports, while we don't have a specific position 
on that, it makes great sense to us.
    We get screened when we came into this building. You know, 
we get screened if the people come to visit us at the OIG get 
screened. So, it seems to make great sense to do it at 
airports.
    Mr. Katko. Yes, and it is one of the things that is 
particularly concerning to me is that a visitor to an airport 
gets screened at an exponentially higher degree of intrusion 
that individuals that are entrusted with access to the secure 
areas of airports. We saw what happened with a drug trafficking 
case in Dallas Fort Worth as an example of how they exploit 
that.
    I am concerned about that going forward. So, to the extent 
your report can address that to some extent going forward, I 
would really very much appreciate that.
    Now, the last thing I will note is a little off-topic, but 
it is important. I do want it noted for the record, part of 
coming in here today, Dr. Gowadia, we had a discussion in the 
anteroom here about the Cuba issue.
    I was just handed an email that was sent out this morning 
which is celebrating the fact that, from the Department of 
Transportation, that multiple airlines are now giving multiple 
daily flights from the United from Cuba and that the process is 
on-going, and it looks like it is going full speed ahead.
    It is going full speed ahead despite the fact that my 
committee was denied access to even look at the airports in 
Cuba, my committee being the Transportation Security 
Subcommittee. That trip to Cuba was necessitated on the fact 
that we believed some of the conduct at the hearing about Cuba 
led to basically stonewalling us while trying to get that 
information.
    So, we were compelled to go to Cuba ourselves. Now, we are 
talking about opening up the airways, airports, ten airports in 
Cuba with direct flights to the United States that we have no 
idea what the security levels are.
    I know you told me that there are charter airlines that 
have been operating out there for quite a while. So, quite a 
different thing from a charter airline who has an occasional 
stop in Cuba to multiple flights with direct flights to the 
United States.
    Also I will note that the main security concerns about 
that, and that is on the heels of what has happened with 
bombings and other airports world-wide, which I just mentioned. 
So, I am very concerned about this.
    I am very concerned about the lack of transparency coming 
from TSA on this issue. I am concerned about the fact that we 
were prohibited from going to Cuba to go and make sure the 
airports are safe enough for people to fly from those airports 
to the United States.
    I am very concerned about that. I wanna make sure and 
reiterate that concern on the record because this seems like, 
with this administration, it is a runaway train. No one is 
going to be able to stop them from doing this. But we are going 
to try our hardest to make sure at least its American people 
are safe when they fly to and from those airports.
    There is a lot of work to be done. There are concerns about 
whether or not air marshals are even going to be allowed on the 
flights. There is concerns about the integrity of the 
employees. There are concerns about whether the equipment there 
is sufficient or existent at all.
    Those are all things that we need to have answered and 
vetted, not just in a secure setting but in a public setting. 
So, the American people can make informed decisions on whether 
or not they want to go to Cuba based on the security concerns.
    You overlie that with the fact that the communist 
government of Cuba is not letting us in, is not working with 
us, is still subject to sanctions from the United States which 
I don't think any of the last point of departure airport in the 
world has.
    You overlie that on the fact that Cuban passports are 
showing up all over the Middle East, especially in Afghanistan. 
Some people are speculating that we may be looking at Cuba as a 
new gateway into the United States for terrorists.
    You overlie that with the fact that 60 years of hostile 
relations between the United States and Cuba lend to the 
logical conclusion that one or two people in Cuba might be 
really pissed off at us still. Might be so mad at us that they 
might do something stupid.
    So, all those things are of a high concern. I would ask 
that you, again, convey them to the appropriate people, and 
tell them that we need to have access to those airports. So, we 
can see for ourselves whether or not they are in proper shape 
to allow American travelers to come.
    Last, I will note it is our job as oversight. We feel like 
we are not doing our job if we don't get that. So, I ask in the 
strongest words possible that you convey that to the folks at 
TSA, and at Homeland Security.
    Ms. Gowadia. I certainly will, sir.
    Mr. Katko. The last thing I will say, and I am sorry, just 
1 minute, the other thing I want to ask about and perhaps I 
will wait until next round, is the overuse of security 
classifications by TSA to shield themselves from discussing 
unfavorable topics in public. I want to talk about that perhaps 
if I have another round.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair would like to follow up on one of his line of 
questions regarding, and it was also the good gentleman from 
Alabama, Mr. Rogers, regarding recurrent investigations or 
vetting, screening, testing, et cetera, and the fact that other 
agencies identified criminal activity that TSA had missed.
    I just want to make sure I understand how that is done. So, 
there is concurrent testing of current employees. So, it is not 
just incoming employees, but as your employed by TSA you 
undergo a battery of testing on some basis, annually, what have 
you. Is that correct?
    Ms. Gowadia. Yes, sir.
    Mr. Perry. So, is there a variation in that? Not only in 
time, but say, different paradigms, the whole panoply. So, this 
year you might have been tested. Let us say you are a 2-year 
TSA employee, and you think you are going to have another check 
in, say, June.
    That check happens in September. So, you can't predict 
when. That test didn't include a polygraph this year, but it 
includes a polygraph next year. That test didn't include a 
State police background check last time. But I just want to get 
a flavor for the variations of that so that there is an 
unpredictability at the point of TSA employees to be able to 
thwart that system.
    Specifically, regarding the insider threat we are all 
concerned about. Yes, ma'am?
    Ms. Gowadia. So, let me clarify, sir. The annual and 
recurrent piece is a vetting.
    Mr. Perry. Right.
    Ms. Gowadia. Vetting against your criminal history.
    Mr. Perry. OK.
    Ms. Gowadia. The testing happens, for drug testing, for 
example, it happens on a reasonable suspicion basis, or a 
random basis.
    Mr. Perry. Or a what basis?
    Ms. Gowadia. Random basis.
    Mr. Perry. Random basis. But regularly occurring. So, in 
the military, if you are in the military, there is going to be 
a random drug test. You might show up 2 times in a row, you 
might not show up for 6 times in a row. It might happen a 
couple months in a row, it might not happen for 8 months at a 
time. Is that similar to TSA?
    Ms. Gowadia. So, I do not know the full details of this 
program, yet, but I imagine that random translates just as you 
mentioned.
    Mr. Perry. Can you confirm that for me?
    Ms. Gowadia. Would you allow me to take it as a get-back, 
please?
    Mr. Perry. Yes, ma'am.
    Ms. Gowadia. Thank you.
    Mr. Perry. On the other paradigms, I would like you to 
delve into that if you could because it seems to me that once 
you get in, look, people are people. We have people that are 
radicalized. We have people that are influenced by different 
things.
    They become dejected, what have you, influenced by maybe 
blackmail. It seems to me that there needs to be--this is 
critical. This infrastructure that would protect the American 
flying public that there should be a pretty robust paradigm in 
this regard that is random, as is varied, and covers the full 
panoply so that we keep honest people honest.
    I don't know how else to put that, but I would like your 
thoughts. If you could get back to me on that as well.
    Let me move on to another question that I have. According 
to individuals who came forward to the committee, senior 
managers at TSA have used directed reassignments, that is the 
terminology I am familiar with it, but I just want to make sure 
I am clear here, to at times punish those who elevate security 
concerns.
    This practice potentially poses a significant cost to 
taxpayers. The administrator, Neffenger, previously testified 
that this practice is no longer occurring. However, just last 
week our staff received allegations, and they are allegations, 
that in June TSA directly reassigned an FSD requiring her to 
report to work from across the country in just 3 days. Are you 
familiar? If you can, please explain if this is occurring, how 
it can occur.
    Ms. Gowadia. All right. I would like to reiterate what the 
administrator said at the hearing that you have referenced. An 
operating agency does need the ability to move its people 
periodically, exigent circumstances, mission-driven, full 
controls applied, well-vetted, because it goes through the 
Office of Human Capital.
    Is it financially sustainable, etcetera? When it comes to 
individual cases, in the interest of the privacy of the 
employee, sir, it is a discussion we should probably have in a 
different environment. I would like to present to you, again, 
off-line, all the details that we have on that particular case 
that you mentioned.
    Mr. Perry. So that I fully understand, are these permanent 
reassignments? Are they temporary? Are they both? You know, 3 
days to relocate across the country, I am thinking, if I had to 
relocate in 3 days across the country it would, you know, I 
have got a family, to get a house.
    Most people do. So that is a hardship. We understand that 
usually like a military TDY move or some other Government move, 
there is a fairly robust period of time with the expectation of 
selling your home and setting up your new home and all that 
stuff.
    So, what is the circumstance there? Is there, if you would, 
do you have any knowledge of it being used as a point of 
reprisal? Has that been done in the past? How do you gauge, how 
do you monitor so that that doesn't happen in the future?
    So, again, in this particular instance we can discuss it, 
all the details in a different environment. We do use details, 
TDYs. We do ask, on occasion, for permanent reassignments. 
Sometimes employees themselves ask for reassignments to be 
directed to new assignments.
    However, the case comes about, it is presented to the 
executive resources counsel. We work through the Human Capital 
Office. We work through the CFO and make sure that the decision 
is being made in the best interest of the mission while keeping 
the employees, the employee in mind.
    Mr. Perry. I do appreciate your mission-focused attitude. 
It has to be mission-focused, but I think maybe what we will do 
is set up a time where we can have a further discussion because 
if it doesn't involve a particular employee information that 
that would be appropriate, but I do want to do that.
    Ms. Gowadia. Right. I would like to underline, sir, that 
this practice does not occur as a retaliatory measure under 
Admiral Neffenger's watch. He has absolutely discontinued that 
practice.
    Mr. Perry. Do you----
    Ms. Gowadia. Put good controls on it.
    Mr. Perry. Since you brought that back up, which I do, and 
if you can in this setting, because I don't know if we are 
divulging--we don't want to divulge operational issues here. 
But, how do you monitor whether it is being used in a--what is 
the safeguard to make sure it is not being used in retaliatory 
fashion.
    Ms. Gowadia. It can no longer be done as a unilateral 
action. There are controls in place.
    Mr. Perry. So it comes up to various agents, various----
    Ms. Gowadia. Absolutely. It comes up the agency.
    Mr. Perry. OK. All right.
    Ms. Gowadia. There are deliberations involved.
    Mr. Perry. Is there a process for redress for the employee 
if they feel that it has not been correctly adjudicated as it 
moves up the chain? Is there a process for redress?
    Ms. Gowadia. Yes.
    Mr. Perry. Maybe the I.G. knows. Are you familiar? Any----
    Mr. Oosterbaan. Certainly. We would address that if the 
allegation is raised to us that would be a kind of classic 
retaliation case that we would investigate.
    Mr. Perry. Do you have a familiar area with this case or 
any others?
    Mr. Oosterbaan. I am not sure which case we are talking 
about. So----
    Mr. Perry. OK. Fair enough. All right.
    At this time, I will yield to the gentleman from New York, 
Mr. Katko.
    Mr. Katko. Thank you.
    As we alluded to earlier there was a hearing a while back 
about the whole Cuba issue. Prior to the hearing, many of us, 
staffers, Congressmen and women, many individuals met with 
folks from TSA to get briefed on what was going on in Cuba.
    Based on that briefing, we became very concerned about the 
security issues with respect to the Cuban airports. At no time 
during that hearing, at no time during that meeting rather, did 
anyone from TSA raise any concerns about any of the information 
that they were discussing being of a Sensitive, Secure, 
Confidential, Secret nature. No security classification 
whatsoever.
    It wasn't even discussed. It was never discussed. We would 
come to the hearing to discuss the very same matter so we could 
have a public discourse on it. Immediately that information was 
designated by the same witness who spoke to us in the meeting 
as being Secure, Sensitive Information which we could not 
discuss in public.
    It raised a specter that we have heard again and again, 
about TSA continually using security classifications to avoid 
having public discussions about certain things that may be 
unpleasant for them to discuss in public.
    So, that is the background. Now, let me ask you, Mr. 
Oosterbaan, did your report look at this issue at all about 
them over the use of security classifications with respect to 
employee misconduct?
    Mr. Oosterbaan. We have just begun an audit on this. So, we 
do not have a current report on it. We are very concerned about 
it. While it is just starting, and I don't have a date yet. It 
should be relatively soon.
    Mr. Katko. Well, I am very glad to hear that that has 
started because it was requested--I made a request to the 
Inspector General's Office after that hearing. So, let me ask 
you, Dr. Gowadia, I know that you have only been there a few 
months, and you have been very patient with some of my 
questions today, but let me just ask you this last question.
    Since that hearing, and since I raised the issue with 
Admiral Neffenger, has there been any internal reviews or 
discussions about this issue at TSA?
    Ms. Gowadia. So, we have definitely spoken to all our staff 
to be more deliberate, be more up front when they are 
discussing material that could expose vulnerabilities, et 
cetera, in a closed setting to make it very clear to our 
partners with whom we are sharing that information that that is 
Security Sensitive Information, and apply the right wrappers to 
it.
    So that you know ahead of time what can and can't be 
discussed in----
    Mr. Katko. Now, on top of that, not just with respect to 
this issue but with respect to other security issues where you 
basically overuse it, what the allegation is, in order to not 
have to talk about unpleasant things with respect to TSA.
    Have you looked at the larger issue?
    Ms. Gowadia. We have not started that, sir. But we will 
certainly take that under advisement. We will wait for the 
findings of the Inspector General, and absolutely act on what 
we see. I would like to stress, and I know you feel the same 
way about this matter, discussing vulnerabilities, aiding and 
abetting the enemies is certainly not in the interest of the 
American public.
    I do appreciate your support in that regard.
    Mr. Katko. Of course, no one wants to do that, but we also 
have a solemn responsibility to protect the American public. 
When you have memos like we got today saying that they are 
going headstrong in with opening up airports all over Cuba.
    We still don't have any of these things answered. They may 
be opening up as soon as the next few months. The American 
Airlines I believe is one that is already selling seats for 
September for those flights. We have no answers.
    Understand why we are concerned about this, and understand 
why there needs to be a public dialog, and understand why we, 
as a committee, may be skeptical about some of the security 
designations because anybody that walks through the airports in 
Cuba can see the same thing.
    So, I don't understand how they are considered to be 
Classified. So, with that being said I want to thank you for 
your patience. I wanna thank you. I know some of the questions 
were tough. They weren't aimed at you personally because you 
just started on the job.
    I have great faith that TSA is going in the right direction 
with your leadership and with Admiral Neffenger's, but there is 
also a lot of tough questions. Like I said to you in the other 
room. The tenor and the relationship between the committee, my 
committee at least, and TSA is going to be dictated by how some 
of these questions are answered.
    We have had a very good relationship going so far. That 
relationship has been tinged by the last hearing. I am hoping 
that it gets repaired and we move forward together because the 
security of airports is what our job is to make sure we do as 
best we can.
    I am not at all confident that that is the case with 
respect to Cuba.
    Ms. Gowadia. You have my support in that partnership, sir.
    Mr. Perry. The Chair thanks the gentleman. Let me wrap up 
with just a couple final questions and thoughts. And Mr. 
Oosterbaan, and Dr. Gowadia, do you know as well?
    Do you conduct what I normally consider a climate survey? 
Is that a normal issue for TSA where you survey the employees 
on a battery of questions that is ever-changing about their 
perceptions of management? Their, you know, their upper 
management, lower management, punishment, all that stuff of 
what I would call a climate survey?
    Are you aware and familiar? Is that something that you 
institute in the performance of personnel management?
    Ms. Gowadia. Well, I know that we take the Federal employee 
viewpoint survey which in some aspects is a climate survey, 
sir. I know we take that annually just like the rest of the 
Federal Government. I do not know if we add onto to that other 
climate surveys.
    Mr. Perry. Mr. Oosterbaan, thoughts?
    Mr. Oosterbaan. We do, sir. Actually, we conduct regular 
inspections of ourselves, and as part of that we do a morale or 
viewpoint survey that addresses all the issues that you 
mentioned.
    Mr. Perry. So let me delve into that a little bit with the 
morale issue as it relates maybe to employee misconduct. What 
kind of things do you glean from the survey that then you can 
put into action or some actionable item to address an issue?
    Can you give me any examples of either one, issues, or 
actions, or solution sets?
    Mr. Oosterbaan. If the surveys are done correctly, you are 
going to get a lot of information running the gamut.
    Mr. Perry. Right.
    Mr. Oosterbaan. But an example would inconsistent 
application of disciplinary rules, favoritism.
    Mr. Perry. Are those issues that you have seen in TSA 
because you mentioned them? I don't know if you are just giving 
me potential data, or these are things that you are familiar 
with because you have seen them and there is an increased 
occurrence of those items.
    Mr. Oosterbaan. I was speaking more generally.
    Mr. Perry. OK.
    Mr. Oosterbaan. But I think your report points to these 
things very directly.
    Mr. Perry. OK. Is that something that is done, how often? 
The climate survey, or the employee survey? How often does that 
occur?
    Mr. Oosterbaan. I was referring to our internal----
    Mr. Perry. Right.
    Mr. Oosterbaan [continuing]. Surveys and we do those 
somewhat independently, in other words, not on an exact----
    Mr. Perry. OK.
    Mr. Oosterbaan [continuing]. Recurrent basis, but we also 
have every one of our field offices and therefore all of our 
people on a regular schedule of inspection and service.
    Mr. Perry. OK, Doctor, do you know?
    Ms. Gowadia. So, I can speak to the Federal Employee 
Viewpoint survey which we do take every year. There are 
certainly questions very similar to what my colleague 
mentioned. I will tell you that my experience with the survey 
is they have very good data.
    First, you have to encourage your staff.
    Mr. Perry. Right.
    Ms. Gowadia [continuing]. To take the survey.
    Mr. Perry. OK.
    Ms. Gowadia. Right? So, the first thing is to increase the 
response.
    Mr. Perry. Right.
    Ms. Gowadia. Because when your soldiers are talking to you, 
you can lead them, right? But you have to inspire that 
response. So, some of the things we did at the NDO back in the 
day was we took the data. We analyzed it carefully. We found a 
couple of places where we could make immediate improvement.
    In doing so we established a basis of trust with our staff. 
Now, the solution sets don't always come from management. In 
fact, they usually come from people who know what is broken and 
know how to fix it.
    So, relying on employee teams to help solve things is 
critical. A lot of these experiences that I did have at the NDO 
I hope to bring to TSA, acknowledging that they are completely 
different work forces in size and scale and mission.
    I will stress to you, in Federal employee viewpoint survey, 
question 43, my supervisor treats me with respect. I find that 
to be a tremendously powerful question. Because if you are 
treated with respect, you are more likely to over-perform. You 
are more likely to feel that you work in a safe and secure 
environment.
    So, this is the one question that I will continue to pay 
attention to. I have seen supervisors peg out at 100 percent on 
that question. Deservedly so. I will throw a shout out to TSA 
supervisors. They do rather well in this area, so.
    Mr. Perry. OK. Thank you. I appreciate that. Let me kind-of 
wind this down. Just a couple thoughts. You need to know, and I 
don't know if you do, that the gamut that misconduct runs from 
the very bottom to your first line brand new employee to the 
very top.
    I just want to make sure if you are not aware that OIG has 
investigated senior leaders, including the former 
administrators, former administrator, for alleged misconduct. I 
just want you to be aware of that.
    I also don't know. I received information recently that 
some of your folks in management, not the TSOs but in 
management, were asked to be deposed, and had to be asked some 
questions. They declined.
    Agency counsel, because they have no confidence in the 
chief counsel. You need to know that. Now, this might be a 
personality issue. But, you know, chief counsel is known to me, 
and is known to me from the Madison Guarantee issue where the 
chief counsel was then an object of investigation as purported 
to provide information of the investigation to other people 
that were objects of the investigation.
    I tell you this because, in this context of low morale, or 
not optimal morale, at the same time we see this issue of 
misconduct. Those issues are important to people and how they 
react to them, and how you, in this new job of yours, and you 
have very little time to make a first impression. You know 
this. You are a smart lady.
    Set that standard and that circumstance where justice is 
blind, and there is a standard that everybody from the top to 
the bottom has to adhere to, and will be judged on accordingly. 
You are the person to do that. All right? I just wanted to 
outline that.
    We appreciate your time here today. We thank you very much 
for it. I thank you for your--I thank the witnesses. Your 
testimony has been valuable. I thank the Members for their 
questions.
    Members may have some additional questions for the 
witnesses. We will ask you to respond to those in writing 
pursuant to the committee rule, VII(E) the hearing record will 
remain open for 10 days.
    Without objection, this subcommittee stands adjourned.
    [Whereupon, at 12 p.m., the subcommittees were adjourned.]



                            A P P E N D I X

                              ----------                              

         Questions From Chairman Scott Perry for Huban Gowadia
    Question 1. Of the 1,270 TSA employees who received more than 5 
misconduct allegations from fiscal year 2013 to 2015, how many received 
promotions, bonuses, or awards during that same time period?
    Answer. Please see the chart below for the requested data. Please 
note: The 1,270 figure represents the number of employees who received 
5 or more allegations of misconduct. Not all allegations were found 
either to have merit or resulted in discipline or adverse action.

FISCAL YEAR 2013-2015 AWARDS, BONUSES AND PROMOTIONS FOR 1,270 EMPLOYEES
------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
Received Awards, Bonuses, or Promotions......................      1,151
No Awards, Bonuses, or Promotions............................        119
------------------------------------------------------------------------

    Data Notations:
  <bullet> Awards include Special Achievement Awards, Spot Awards, and 
        Group Cash Awards.
  <bullet> The term bonus represents performance-related bonuses.
    Question 2a. Dr. Gowadia testified that Administrator Neffenger 
requested her to examine human capital functions enterprise-wide, which 
included bringing the entire workforce under the Office of Human 
Capital.
    What specific steps have been taken to date?
    Answer. The Office of Human Capital (OHC) is designing a phased 
approach to an enterprise-wide Human Resources (HR) solution. The plan 
will include the phased milestones necessary to achieve the centralized 
oversight of human capital positions at headquarters and field 
locations. The plan will be designed so that organizational levels 
understand and comply with guidance, policy, and merit system 
principles; provide local management and other program staff with 
advice; and continue to meet standards and competency requirements 
established by OHC for their positions.
    Question 2b. What specific aspects of human capital management will 
be under the jurisdiction of the Office of Human Capital?
    Answer. Administrative employment and personnel management 
functions will align under the jurisdiction of OHC to include: 
Benefits, employee relations, discipline, hiring, hours of duty, leave, 
compensation/pay, performance management, personnel and payroll, 
position classification, position management, workers' compensation, 
employee engagement, and workforce development.
    Question 2c. Will the Office of Human Capital ensure that the 
policies it generates are followed? If so, what specific steps will be 
taken?
    Answer. OHC will implement an engagement plan to ensure that the 
policies it generates are followed. OHC engages with headquarters and 
field offices on those policies. OHC also has reinforced communication 
with human capital staff. Further, OHC is developing a training program 
to improve operational effectiveness and handling of employee relations 
and HR-related workforce issues.
    Question 3a. Dr. Gowadia testified that all TSA employees, 
including senior leaders, were going through training at the TSA 
Academy.
    To date, how many TSA employees have completed this training?
    Question 3b. Of these, how many senior managers have completed this 
training?
    Answer. The Transportation Security Administration (TSA) created 
the TSA Academy at the Federal Law Enforcement Training Centers 
(FLETC). To date, approximately 4,200 Transportation Security Officers 
have completed basic training at the TSA Academy. TSA's members of the 
Transportation Security Executive Service (TSES) also receive training. 
They attend the National Preparedness Leadership Initiative Course at 
Harvard University. To date, 75 of 133 TSES leaders have completed the 
National Preparedness Leadership Initiative Course. In addition, 
Federal Air Marshals (FAMs) go through extensive training at FLETC in 
Artesia, New Mexico and the TSA Training Center near Atlantic City, New 
Jersey.
    In January 2017, TSA will begin Management and Administrative 
Professional training at the TSA Training Center. This training will be 
for employees hired at TSA who are not Officers, FAMs, or members of 
the TSES.
    Question 4. In July 2013, GAO recommended that TSA establish a 
process to review misconduct cases to ensure that airport-level 
officials responsible for adjudicating employee misconduct were 
complying with TSA's policies and procedures (GAO-13-624). According to 
GAO, TSA implemented this recommendation because its Audits and 
Inspections Division audited disciplinary actions at airports in 
November 2014 and developed an inspection checklist that included items 
related to disciplinary files. How many audits have been conducted 
since that single audit in November 2014?
    Answer. Since the initial Office of Inspection (OOI) Audit of 
disciplinary actions in 2014, OOI's Audits and Inspections Division has 
incorporated reviews of disciplinary actions into the standard 
inspection process. These reviews are typically assisted by 
representatives from OHC. Any deficiency is captured as a Corrective 
Action Plan (CAP), which articulates the actions needed to improve 
performance, along with time lines for implementation.
    Since incorporating disciplinary actions as a standard inspection 
item, OOI's Inspections Branch has conducted 15 airport inspections, 3 
Federal Air Marshal Service inspections, and 3 inspections at TSA's 
Office of Global Strategies (OGS), all of which included an examination 
of disciplinary actions. Of the 21 inspections, OOI has issued a total 
of 7 CAPs (6 at airports; and 1 at an OGS location) relating to 
disciplinary actions, all of which have been closed in the OOI follow-
up process.
    Question 5a. TSA's Employee Code of Conduct requires managers and 
supervisors to ensure that all employees review the code of conduct 
policy and accompanying handbook each year.
    What percentage of TSA employees completed this requirement in 
fiscal year 2015?
    Answer. Total accounts: 63,095.
    Total Fiscal Year 2015 Completions: 62,706.
    Completion Percent: 99.4%.
    Question 5b. How does TSA headquarters ensure that managers and 
supervisors are enforcing this requirement?
    Answer. In accordance with TSA Management Directive (MD) No. 
1100.73-5, Employee Responsibilities and Code of Conduct, managers and 
supervisors are responsible for ensuring all new employees participate 
in new employee orientation. During the orientation, new employees 
receive a copy of the directive, the accompanying handbook, and either 
the Standards of Ethical Conduct for Employees of the Executive Branch 
(5 C.F.R. Part 2635) (``Standards'') or a comprehensive summary of the 
Standards. In addition, managers and supervisors are responsible for 
ensuring employees sign TSA Form 1149, Employee Responsibilities and 
Code of Conduct Acknowledgement, or review the materials on the On-line 
Learning Center (OLC) and complete the associated certificate. This 
form/certificate acts both as acknowledgment of receipt of the Code of 
Conduct and acknowledgment of the employee's understanding of the 
content.
    Throughout their employment with TSA, employees are expected to 
review and acknowledge their understanding of the MD, Handbook, and the 
Standards on an annual basis. Additionally, employees are expected to 
review and acknowledge their understanding of the MD, Handbook, and/or 
Standards after each revision within 45 calendar days of the effective 
date of the revision. Employees are provided up to 1 hour of official 
duty time per year to complete the review. The Headquarters OLC office 
provides training managers the ability to create reports locally to 
verify completion. The OLC office provides larger reports on an ``as 
requested'' basis.
    Question 6. According to TSA, all directed reassignments must now 
be reviewed by the chief human capital officer, chief financial 
officer, the Executive Resources Council and, ultimately, by the 
administrator. However, the Executive Resources Council is made up of 
the very officials who may request the directed reassignments they are 
in charge of approving. Given that individuals who came forward to the 
committee have asserted that directed reassignments have been abused by 
senior leadership, what specific controls are in place to ensure that 
the Executive Resources Council fairly reviews and approves directed 
reassignments?
    Answer. The Executive Resources Council (ERC) is a committee of 
TSES members that are expected to be role models for Government 
integrity and set the workforce standards for ethical behavior and 
conduct. The deputy administrator is a permanent member of the ERC and 
serves as its designated chair. The assistant administrator for the 
Office of Civil Rights and Liberties, Ombudsman and Traveler Engagement 
and the deputy assistant administrator for OHC serve as advisors to the 
ERC. As such, these advisors ensure that business conducted by the ERC 
is fair and in accordance with applicable laws, regulations, and 
policies regarding merit staffing procedures, equal employment 
opportunity, the TSES Interchange Agreement with the U.S. Office of 
Personnel Management, and Department of Homeland Security and TSA 
workforce diversity goals. Voting members of the ERC must recuse 
themselves and abstain from voting on any decisions directly affecting 
their respective offices, including directed reassignments. The Chair 
only votes on decisions that result in a tie.
    Question 7a. Dr. Gowadia testified that 99.7% of TSA officers have 
passed integrity tests and Administrator Neffenger stated in a letter 
to Chairman Michael McCaul that this ``anti-theft program uses a wide 
array of `bait' items that are sent through both the checkpoint and 
baggage screening operations to verify the integrity of the screening 
workforce.''
    Please list in full the bait items that are included in integrity 
tests.
    Answer. The bait items used in integrity testing are based on TSA 
claims management data indicating which types of items are often 
reported as lost or stolen. They include cash, jewelry, watches, 
physical fitness monitors, iPads, laptop computers, handheld gaming 
devices, headphones, earbuds, and other designer items.
    Question 7b. What steps does TSA take when an employee fails an 
integrity test?
    Answer. When TSA's OOI has determined that an employee has failed 
an integrity test due to potential criminal activity, OOI will initiate 
a criminal case, which includes referring matters involving over $2,000 
to the Department of Homeland Security (DHS) Office of Inspector 
General (OIG) for first right of refusal. If OIG chooses not to accept 
the case for investigation, the matter is referred back to OOI for 
investigation.
    Question 7c. On what research or scientific basis did TSA base 
these integrity tests?
    Answer. OOI analysts review TSA claims management data for trends 
and hotspots to determine locations for testing, as well as what types 
of items to use. OOI also receives information from various other 
sources, including Federal Security Directors concerned about theft at 
their airports. In addition to this targeted testing, OOI also selects 
airports at random for inclusion in integrity testing.
    Question 8a. According to TSA policy, ``TSES members may only 
receive one pay adjustment to their salary in a 12-month period unless 
approved by the Under Secretary for Management.''
    How many of these types of adjustments occurred from fiscal year 
2013 through 2015?
    Question 8b. During that time period, how many TSES members 
received more than one pay adjustment to their salary in a 12-month 
period?
    Question 8c. Of those, how many were approved by the DHS Under 
Secretary for Management?
    Answer. Between fiscal year 2013 and fiscal year 2015, TSA 
processed 196 performance-based pay adjustments for TSES employees; 102 
during fiscal year 2014 and 94 during fiscal year 2015. TSA processed 
no adjustments during fiscal year 2013 due to the Federal Government-
wide pay freeze for Senior Executives that was in effect during 
calendar years 2010 through 2013.
    During fiscal year 2014 and fiscal year 2015, there were 29 TSES 
employees who received more than one increase during a 12-month period. 
The following is the breakdown for the 29 TSES employees:
  <bullet> Twenty-five TSES employees received reassignments resulting 
        in moving into a position with greater responsibility and 
        complexity. Reassignments are exceptions to the 12-month pay 
        adjustment rule and do not require approval by the DHS Under 
        Secretary for Management.
  <bullet> One TSES employee received an additional pay adjustment to 
        raise the employee's salary to the minimum of the SES/TSES pay 
        range because the employee's current salary was below the 
        minimum TSES pay band at the time that the new year pay rates 
        went into effect. This pay increase is an exception to the 12-
        month pay adjustment rule and does not require approval by the 
        DHS Under Secretary for Management.
  <bullet> TSA and the DHS Under Secretary for Management approved pay 
        adjustments for three TSES employees as part of their annual 
        Performance Review Board process, and each adjustment was 
        scheduled to be processed on the 12-month anniversary date. 
        However, due to an administrative error, these were processed 
        ahead of schedule and thus these 3 TSES employees received an 
        additional increase within a 12-month period.
    Question 9a. TSA conducts several types of testing related to 
deterring and detecting misconduct.
    How often does TSA's recurrent vetting against criminal history 
records to detect criminal activity that may not have been self-
reported?
    Answer. On September 1, 2013, TSA implemented an annual Recurrent 
Vetting Program, which includes a review of all TSA employees' 
fingerprint-based criminal history records check. The purpose of 
recurrent vetting is to identify any unreported criminal activity 
between the current re-investigation cycles that may not have been 
self-reported, disclosed, or developed. This does not replace the 5- 
and 10-year re-investigative process, but rather enhances it by 
requiring a more frequent review of an employee's criminal history 
records.
2013/14 TSA Employee Recurrent Vetting
  <bullet> Total population equates to approximately 51,643 or (99%)
  <bullet> Total number of unreported issues 220 or (1%) of the 
        population
  <bullet> Top 3 Offenses: DUI, Miscellaneous Traffic, Assault/Battery
    Question 9b. For fiscal years 2013 through 2015, how often did TSA 
conduct random drug testing?
    Answer. TSA conducted random drug testing 228 days in fiscal year 
2015, 265 days in fiscal year 2014 and 254 days in fiscal year 2013.
    Question 9c. What specific types of testing does TSA conduct to 
identify behavior indicative of insider threats?
    Answer. TSA's Insider Threat Unit (ITU) within the Office of Law 
Enforcement conducts Insider Threat Assessments (ITAs) at high-risk 
U.S. airports and TSA facilities. These ITAs are coordinated with Joint 
Vulnerability Assessment (JVA) deployments and are designed to:
  <bullet> Educate internal and external stakeholders on insider-
        threat-related motivators, factors, and observable behavioral 
        indicators;
  <bullet> Promote a culture of integrity and an environment of 
        acceptance for reporting insider-threat-related factors and 
        indicators;
  <bullet> Increase awareness and provide tips for recognizing 
        behaviors and/or situations that may indicate an employee is a 
        risk of an insider threat.
    Airports also receive the Self-Vulnerability Assessment Tool for 
yearly self-testing and JVA Best Practices Guide summarizing common 
vulnerabilities and suggested mitigation strategies.
    The ITU's Focused Operations branch maintains highly-skilled 
personnel who possess capabilities/skillsets which include digital 
forensics, e-discovery, data analysis, and Open Source data correlation 
which allow for the gathering of evidentiary data for high-risk user 
monitoring cases. This branch provides technical support and detects 
and responds to high-risk user malicious, anomalous, and/or 
unauthorized cyber activity in the environment. This detection is 
accomplished using a software tool where defined user activities on a 
TSA IT system, indicative of potential misconduct or malicious 
behavior, are used as alerts. Examples of these types of end-user 
activities include:
  <bullet> Unauthorized Removable Media use (USB Thumb Drive, External 
        Hard Drives, digital cameras)
  <bullet> Excessive data alteration and deletion/wiping, especially by 
        high-risk groups (e.g. administrators)
  <bullet> Use of non-approved tools
  <bullet> Attempts to access segregated/escalated systems/file shares/
        databases
  <bullet> Business logic triggers that would capture misuse of access 
        and rights
  <bullet> Sensitive keyword searching of confidential or sensitive 
        keywords or data
  <bullet> Excessive printing, for example 200 pages/day
  <bullet> Abnormal work hours (IT Access/physical access)
    Lastly, TSA's Office of Inspection conducts proactive operations to 
detect employees who may be involved in corruption or other insider 
activities, solicit assistance from trusted employees, and collect 
criminal intelligence information that may identify those who are 
exploiting their insider access with nefarious intent.
    Question 10. Beyond the Federal Employee Viewpoint Survey, does TSA 
administer any other surveys to assess employee morale? If so, please 
describe such surveys and how often they have been administered.
    Answer. In addition to the annual Federal Employee Viewpoint Survey 
(FEVS), which is administered by the Office of Personnel Management to 
a sample of Federal Government employees, TSA also administers an 
Employee Engagement Survey (EES) and a National Exit Survey (NES) to 
assess employee morale.
    The EES was first administered in 2015 and is designed to address 
TSA's unique needs and characteristics. This survey allows TSA to 
assess the entire workforce and collect agency-specific information on 
employee engagement, organizational climate, culture, and environment, 
set initial benchmarks to compare with future studies, link to other 
organizational metrics, and drive organizational change. Like the FEVS, 
results are compiled and distributed at the local (i.e., office/
airport) and corporate (i.e., TSA-wide) levels. The EES is conducted on 
a bi-annual cycle, with the next administration scheduled for 2017.
    The NES began in 2005 and was updated in 2009 to an on-line-only 
process and to include Federal Air Marshal Service employees. The NES 
covers all TSA employees who voluntarily leave TSA. They are asked to 
describe how they viewed the job at TSA at the time of hiring, provide 
the reason(s) for leaving TSA and respond to follow-up questions on 
their reason(s) for leaving. Additionally, they are asked to identify 
one or two things TSA could do to retain talented employees in the 
future. Results from the NES are compiled semi-annually and distributed 
to TSA senior leadership with an analysis of the most frequent reasons 
for departing during the reporting period and cumulatively since survey 
inception.
    The EES and NES supplement the FEVS to assess morale at TSA. 
Results from the three surveys help TSA understand the drivers of 
satisfaction and engagement at the local (i.e., office/airport) and 
corporate (i.e., TSA-wide) levels, as well as reasons why employees 
choose to leave and how TSA can improve retention.
    Question 11. In January 2016, the DHS OIG reported that TSA's 
oversight of its $1.2 billion human capital services contract needed 
more effective oversight, particularly related to holding the 
contractor accountable for poor performance. Despite TSA agreeing with 
OIG's four recommendations, the OIG reported that TSA's planned actions 
to address two of these recommendations did not fully address the OIG's 
intent. As such, two of these recommendations are considered open and 
unresolved. To what extent has TSA implemented all four of these 
recommendations?
    Answer. The DHS OIG January 2016 report contained 5 
recommendations. TSA concurred with all 5 recommendations. As noted in 
the attached May 18, 2016 OIG memorandum: Recommendation 3 was 
previously closed; recommendations 2 and 4 were resolved and closed; 
recommendation 5 was resolved and open; and recommendation 1 remained 
unresolved and open.
    TSA submitted a Corrective Action Plan Update to the OIG in July 
2016 (attached)* with an update on the open recommendations 1 and 5. 
The Corrective Action Plan Update also requests closure of 
recommendation 5 and a change in the status of recommendation 1 from 
unresolved and open to resolved and open. Among other things, the 
Corrective Action Plan Update outlines the steps TSA is taking to 
address and implement recommendation 1.
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
       Questions From Chairman Scott Perry for Andrew Oosterbaan
    Question 1a. According to TSA, employees are vetted on a recurrent 
basis, which includes TSA conducting criminal history checks to 
identify activity that might not have been self-reported or disclosed 
as required.
    How does TSA's process for vetting employees compare to other DHS 
components?
    Question 1b. How does it compare with best practices?
    Answer. The OIG has not conducted audit or inspection work 
regarding TSA's employee vetting process or comparing the process for 
vetting employees across DHS components. While we published a report in 
2015, ``TSA Can Improve Aviation Worker Vetting,'' that report did not 
analyze TSA's process for vetting its own employees, but rather vetting 
airport workers with access to secure airport areas. If you would like 
us to review DHS employee vetting policies and best practices, we would 
be happy to consider your request as part of our fiscal year 2017 or 
fiscal year 2018 work plan.
    Question 2a. According to TSA, all directed reassignments must now 
be reviewed by the chief human capital officer, chief financial 
officer, the Executive Resources Council and then, ultimately, by the 
administrator himself. However, the Executive Resources Council is made 
up of the very officials who may request the very directed 
reassignments they are in charge of approving.
    Does this current construct appear to have a conflict of interest?
    Question 2b. What controls should be implemented to ensure that 
directed reassignments are used only when necessary and not as 
retribution?
    Answer. TSA appears to have implemented a new process designed to 
ensure that directed reassignments are used appropriately, which 
includes review by the administrator. It is too early to tell whether 
this will correct the reported abuses of the process, but we will 
monitor TSA's implementation and report problems or improprieties if we 
find any.

                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
